<html>
<title> - EXAMINING THE NUCLEAR POSTURE REVIEW</title>
<body><pre>[Senate Hearing 107-677]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 107-677
 
                  EXAMINING THE NUCLEAR POSTURE REVIEW
=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 16, 2002

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate








                       U. S. GOVERNMENT PRINTING OFFICE
81-670                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






                     COMMITTEE ON FOREIGN RELATIONS

                JOSEPH R. BIDEN, Jr., Delaware, Chairman
PAUL S. SARBANES, Maryland           JESSE HELMS, North Carolina
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       GORDON H. SMITH, Oregon
PAUL D. WELLSTONE, Minnesota         BILL FRIST, Tennessee
BARBARA BOXER, California            LINCOLN D. CHAFEE, Rhode Island
ROBERT G. TORRICELLI, New Jersey     GEORGE ALLEN, Virginia
BILL NELSON, Florida                 SAM BROWNBACK, Kansas
JOHN D. ROCKEFELLER IV, West         MICHAEL B. ENZI, Wyoming
    Virginia

                   Antony J. Blinken, Staff Director
            Patricia A. McNerney, Republican Staff Director

                                  (ii)






                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, prepared 
  statement......................................................     1
Cirincione, Joseph, senior associate and director, Non-
  Proliferation Project, Carnegie Endowment for International 
  Peace, Washington, DC..........................................    44
    Prepared statement...........................................    48
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  statement submitted for the record.............................     3
Foster, John S., Jr., Ph.D., former director, Lawrence Livermore 
  National Laboratory; former director, Defense Research and 
  Engineering, Department of Defense, Washington, DC.............     6
    Prepared statement...........................................    10
Owens, Admiral William A., U.S. Navy (Ret.), former Vice Chairman 
  of the Joint Chiefs of Staff; co-CEO and vice chairman, 
  Teledesic LLC, Bellevue, WA....................................    13
    Prepared statement...........................................    16
Thompson, Loren B., Ph.D., chief operating officer, Lexington 
  Institute; adjunct professor of Security Studies, Georgetown 
  University, Washington, DC.....................................    38
    Prepared statement...........................................    42
Weinberg, Steven, Ph.D., winner of the Nobel Prize in Physics 
  (1979), professor of Physics, University of Texas, Austin, TX..    27
    Prepared statement...........................................    33

                                 (iii)

  


                  EXAMINING THE NUCLEAR POSTURE REVIEW

                              ----------                              


                        WEDNESDAY, MAY 16, 2002

                                       U.S. Senate,
                               Foreign Relations Committee,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:51 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee), presiding.
    Present: Senators Biden, Lugar and Hagel.
    The Chairman. The hearing will come to order. I apologize 
for being late, and I, quite frankly, should have had Senator 
Lugar start the hearing. I was on an Amtrak train that was 
delayed 25 minutes. But lest you think Amtrak's in trouble, 
just think of every time you fly. All you've got to do is think 
about flying, and then you'll feel better about Amtrak.
    I'm going to put my statement in the record and I would 
just like to suggest that there's three key points I'm 
interested in. One is, despite some of the rhetoric surrounding 
the Nuclear Posture Review [NPR], it seems to me that it 
affirms more existing policy than it does break new ground. 
And, second, is that the NPR's conclusions--the concern I have 
is that they threatened--may threaten to lead the resumption of 
U.S. nuclear testing that could unravel nuclear 
nonproliferation regimes. And the third concern I have is the 
development of new nuclear weapons, including low-yield earth 
penetraters that could blur the traditional firewall between 
the conventional and nuclear weapons and, hence, make nuclear 
war more likely. They're things that I'm going to want to speak 
to with our witnesses.
    I'd ask unanimous consent that my entire statement be 
placed in the record.
    [The prepared statement of Senator Biden follows:]

           Prepared Statement of Senator Joseph R. Biden, Jr.

    Today the Senate Foreign Relations Committee holds a rather unusual 
hearing, one in which the subject is a Department of Defense document. 
The reason is that, especially in the realm of strategic policy, 
decisions regarding the structure and possible use of our nuclear 
arsenal are fraught with foreign policy implications.
    For 57 years, the strategic and foreign policies of the United 
States have been crafted in the shadow of the bomb. The overwhelming 
challenge has been to deter our enemies from attacking us or our 
allies, while also avoiding a conflict in which many millions of 
innocent people--indeed, whole societies--could perish.
    In the post-cold war era, our enemies and our fears have changed 
markedly. Today, a nuclear Armageddon is more likely to result from 
accident than from any intentional march to war. While the context has 
changed, however, our post-cold war strategic objectives remain the 
same: to deter others, but also to avoid a nuclear catastrophe.
    The United States and Russia no longer control other countries' 
actions to the degree that we did during the cold war. As a result, our 
non-proliferation efforts have become an increasingly important element 
in our foreign policy. We can no longer be confident that a minor power 
with weapons of mass destruction will heed our advice not to use those 
weapons. So it becomes ever more important to prevent the spread of 
those weapons.
    Four months ago, the administration sent to the Congress--and 
briefed to the media--its Nuclear Posture Review, a classified, 
legislatively mandated document in which the Department of Defense and 
the Department of Energy set forth a strategy for the maintenance and 
possible use of our nuclear forces. In March, large portions of the 
Review were made public when they were leaked to the press. This 
document affords us a vital window into the thinking of our top defense 
officials on strategic policy.
    The Nuclear Posture Review has prompted much public discussion in 
the last two months, and I have questions about it as well. My concerns 
may not always parallel those raised by the press. For example, I was 
not surprised to read that we would consider targeting countries other 
than Russia or China, or that we would maintain our traditional 
ambiguity on whether we might use nuclear weapons in response to an 
attack involving non-nuclear weapons of mass destruction. Those are 
actually long-standing U.S. policies.
    The Nuclear Posture Review did cause me some concern, however, for 
the following reasons:

          1. It isn't forthright. This document was sent to the 
        President and Congress, both of whom have vital national 
        security functions. The authors ought to have made clear how 
        much it ratifies existing policy--on issues ranging from 
        potential nuclear targets to the force reductions that the 
        Pentagon supports--and how little is really new. I worry that 
        our defense officials may believe their rhetoric about putting 
        the cold war and mutual deterrence behind us, when--to me, at 
        least--the Nuclear Posture Review does not really do that.

    I think that much of the vaunted ``new Triad'' of forces is based 
on hypothetical capabilities that we may not achieve for decades. I 
worry that basing our strategic policy upon such a distant horizon may 
cause our defense officials to overlook short-term risks and 
opportunities.

          2. It threatens to lead to new nuclear testing that would 
        unravel the nuclear non-proliferation regime. That's because it 
        opens the door to developing new nuclear weapons that would 
        require such testing. If we were to test because we had 
        discovered a fault in existing weapons that could only be cured 
        through testing, the world would be upset--but nuclear non-
        proliferation would survive. If we test to develop new weapons, 
        however, the message will be that we value those weapons more 
        than we do non-proliferation. And other countries will take 
        their cue from us.

          3. These new weapons could make nuclear war more likely--
        thereby making us all less secure, rather than more so. Some of 
        the new weapons discussed in the Nuclear Posture Review would 
        be intended to reduce collateral damage or to strike deeply 
        buried targets. While those are understandable objectives, such 
        weapons could blur the distinction between conventional and 
        nuclear war, making it more likely that we would ``go nuclear'' 
        next time.

    One important way in which we have deterred the use of nuclear 
weapons for over half a century is by maintaining their character as 
weapons of mass destruction. We made it clear, both to our enemies and 
to ourselves, that once a nuclear response was undertaken or invited, 
all bets were off as to where it would end. The Nuclear Posture Review 
seems to flirt with changing that approach.
    Should we be the first country in two generations to use nuclear 
weapons? Would that lead others to use nuclear weapons as an 
``equalizer'' to counter our conventional superiority? Would the war-
fighting advantage that we gained from more usable nuclear weapons 
really justify destroying the firewall against nuclear war that we and 
the world have maintained since the end of World War II?
    To me, treating nuclear weapons as a handy military tool, rather 
than as weapons of retaliation or last resort, seems profoundly unwise.
    That is why I have convened a group of truly esteemed witnesses to 
help us understand the Nuclear Posture Review and its implications for 
our strategic and foreign policy.
    We certainly have witnesses of great experience and wisdom today, 
and I am delighted to welcome all of you.
    Our first panel will feature two of the most important strategic 
thinkers of our day. Admiral Bill Owens, retired Vice Chairman of the 
Joint Chiefs of Staff, gave us the ``revolution in military affairs'' 
that brought information-age technology onto the battlefield. From the 
gulf war to Bosnia and Kosovo, and most recently in Afghanistan, we 
have seen new vistas in the use of precision-targeted military force. 
Admiral Owens--who now is co-CEO of Teledesic--will speak both as a 
war-fighter and as one who has looked carefully at the future of war.
    Dr. John Foster, former Director of the Lawrence Livermore National 
Laboratory, served also as Director of Defense Research and 
Engineering. In recent years, he has headed important expert panels on 
the state of our nuclear Stockpile Stewardship Program and on our 
readiness to resume nuclear testing. His recommendations have prompted 
political debate, and I hope he will explain to us what an increased 
test readiness program can realistically achieve, why we need it, and 
why, in his view, it is nothing to be feared.
    Our second panel will begin with a most distinguished scientist, 
Professor Steven Weinberg of the University of Texas. In 1979, 
Professor Weinberg won the Nobel Prize in physics. Throughout his 
career, he has combined cutting-edge work with an ability to explain 
modern science to the rest of us. His books The First Three Minutes and 
Dreams of a Final Theory have been best-sellers.
    Professor Weinberg has also dealt before with the military and 
policy implications of modern physics. He is a former member of Jason, 
and he was at one time a consultant to the U.S. Arms Control and 
Disarmament Agency.
    The second witness on our second panel will be Dr. Loren Thompson, 
chief operating officer of the Lexington Institute. Dr. Thompson wrote 
an interesting piece recently for the Wall Street Journal, in which he 
argued essentially that critics of the Nuclear Posture Review should 
calm down, because all the proposals in it were really aimed at 
buttressing nuclear deterrence. I look forward to any reassurance he 
can provide.
    Our final witness will be Joseph Cirincione, director of the Non-
Proliferation Project at the Carnegie Endowment for International 
Peace. Mr. Cirincione is a man of many talents who has been a frequent 
witness before this committee and who was once a staff member of the 
House Armed Services Committee. He specializes in the nexus between 
military and foreign policy, and we will count on him to draw together 
the many points of view that will be expressed this morning.
    I understand that Dr. Foster will have to leave early, so after 
Senator Lugar makes his opening statement, I turn the floor over to Dr. 
Foster and then Admiral Owens. Following their presentations, I hope we 
can focus our initial questions on Dr. Foster so as to get the maximum 
benefit from his presence today.

    [The prepared statement submitted by Senator Feingold 
follows:]

           Prepared Statement of Senator Russell D. Feingold

    Mr. Chairman, thank you for calling this hearing. The 
congressionally-mandated Nuclear Posture Review gives us an opportunity 
to rethink the role of nuclear weapons in our overall strategic 
framework.
    The horrific events of September 11 brought into sharp focus that 
the threats of the 21st century are far different from the threats of 
the last century. During the 20th century, our adversaries were easily 
named and contained within defined national borders. The forces that 
our men and women in uniform are currently fighting belong to mobile, 
well-financed terrorist cells that do not have a centralized structure 
and exist in the shadows around the world, and even in our own country. 
This new kind of enemy challenges our conception of traditional warfare 
and demands a different kind of response, and a different strategic 
framework.
    I am concerned that the Nuclear Posture Review we will discuss 
today does not adequately address emerging threats. We must ensure that 
we adopt the best approach for the 21st century.
    I welcome the President's announcement of a preliminary agreement 
between the United States and Russia to reduce the nuclear weapons 
stockpiles of the two countries. And I am pleased that this important 
agreement will be contained in a binding treaty rather than in a less 
formal agreement between the two Presidents. I urge the administration 
to include provisions regarding destruction of these deadly weapons and 
verification of such destruction in the treaty before sending it to the 
Senate. Only by dismantling and destroying these weapons can we truly 
achieve the goal of meaningful nuclear arms reduction. As a member of 
this committee, I look forward to reviewing the provisions of this 
treaty when it is submitted to the Senate for its advice and consent.
    While I applaud these reductions, I remain concerned that the 
overall theme of the Nuclear Posture Review seems to point to increased 
reliance on nuclear weapons. I am particularly concerned about 
proposals for so-called ``mini-nukes,'' which could be fired at smaller 
targets or be used to penetrate bunkers buried deep beneath the Earth's 
surface.
    The United States should not be in the business of making nuclear 
weapons the preferred alternative on the battlefield. Nuclear weapons 
loom as the weapon of last resort. Mini-nukes threaten to dangerously 
blur the line between conventional and nuclear warfare by potentially 
lowering the threshold for a decision to use these devastating weapons. 
By developing mini-nukes, the United States could well launch another 
arms race as other countries seek to match or exceed our new 
capabilities. And we should consider the possible negative health 
effects that such weapons could have on our men and women in uniform, 
who would be forced to serve in an environment polluted by nuclear 
radiation.
    Thank you, Mr. Chairman.

    The Chairman. And I yield to the Senator from Indiana, 
Senator Lugar.
    Senator Lugar. Thank you, Mr. Chairman..
    Senator Lugar. Mr. Chairman, the strategic environment 
during the cold war was characterized by high-risk but low-
probability of ballistic-missile exchanges in the use of 
weapons of mass destruction. Today, however, is the opposite 
case. We live in a lower-risk but higher-probability 
environment with respect to ballistic-missile exchanges and the 
use of weapons of mass destruction.
    Whereas, previous strategic calculations assumed almost 
limitless offensive nuclear weapons systems but more or less 
rational actors, experiences with Saddam Hussein, Osama bin 
Laden, and others make this assumption less plausible today. 
President Bush has correctly pointed out that the cold war 
nuclear strategy is not appropriate for the current threat 
environment. While nuclear weapons will continue to play a role 
in United States defense policies, they will not be our primary 
form of deterrence. We must continue to move the world, while 
we exercise necessary care and prudence, away from nuclear-
dependent deterrence.
    I agree with the Nuclear Posture Review's conclusion that, 
``The United States will no longer plan, size, or sustain its 
forces as though Russia presented a smaller version of the 
threat posed by the former Soviet Union.'' Instead, we must 
configure a force to deter a number of different threats 
emanating from many sources. Our nuclear triad must undertake 
the same metamorphosis as our conventional forces. We must be 
lighter, quicker, more able to adapt to the changing 
environment which characterizes the post-cold war era. By 
moving to a smaller nuclear-force posture, we must have a very 
high level of confidence in the safety and security of our 
stockpile. The safe maintenance and storage of these weapons is 
of the utmost concern. We cannot allow them to fall into 
disrepair or permit their safety to falter. As our force 
shrinks, this reliability must grow if we are to maintain full 
confidence in our nuclear deterrence.
    On Monday, President Bush announced that the United States 
and Russia had reached an agreement to lower the number of 
deployed warheads to between 1,700 and 2,200. And the treaty 
will be signed on May 24 during the United States-Russia 
summit. I believe this treaty marks the step toward a safer 
world. I plan to work closely with Chairman Biden and Senator 
Helms in seeking a swift ratification of this important 
milestone. I understand the administration tends to submit the 
treaty to the Senate promptly, and I've proposed, respectfully, 
Mr. Chairman, that the committee aim to report the treaty to 
the floor in an expeditious manner so that ratification might 
occur prior to adjournment this year.
    Senate ratification before the end of the year will show 
leadership on this important matter. The Russian Duma and the 
world will be watching and studying our enthusiasm and our 
commitment to securing ratification. This agreement is an 
important achievement, but the agreement and others like it are 
only successful if they are fully implemented by both sides. 
Only then will the security and stability we seek be enhanced.
    Unfortunately, the benefits of the treaty are not assured. 
Russia cannot afford to dismantle their weapons system through 
resources currently available. The Nunn-Lugar Cooperative 
Threat Reduction Program is the means by which the United 
States assists Russia in meeting its dismantlement obligations 
under the START I Treaty. The need for dismantlement and 
assistance will continue.
    Under the START I Treaty, the former Soviet Union 
identified 13,300 offensive warheads. To date, Nunn-Lugar has 
deactivated 5,896 of these weapons. In addition, the program 
has destroyed 1,200 missiles, more than 900 missile launchers, 
100 long-range bombers, and 22 missile submarines. As important 
as the crucial role that the legislation has played in 
implementing the recently announced treaty, some in Congress 
continue to drag their feet in giving the President the power 
to carry out these efforts. Each year, the administration is 
required to certify that Russia is committed to arms control 
goals. Complete Russian accountability and transparency in the 
chemical and biological arenas have been lacking. As a result, 
the administration has now requested a waiver from that 
certification as a part of the current supplemental 
appropriation legislation. In the meantime, although existing 
programs may continue, no new activities to dismantle or 
destroy weapons of mass destruction can be started and no new 
contracts can be finalized.
    Some in Congress oppose granting the President a permanent 
waiver authority in order to implement Nunn-Lugar, but, absent 
congressional passage of a waiver, Russian treaty 
implementation will lag far behind, and our common security 
goals will be in jeopardy. As President Bush is concluding and 
signing a treaty with Russia to take nuclear weapon levels down 
to near 2,000, some in Congress are actively working to stymie 
the efforts to ensure timely and complete dismantlement of 
those same Russian weapons stockpiles.
    In sum, I believe the No. 1 national-security threat facing 
the United States is the nexus of terrorism and weapons of mass 
destruction, and there is little doubt that Osama bin Laden and 
al-Qaeda would have used weapons of mass destruction on 
September 11 if they had possessed them. It's equally clear 
they made an effort to obtain them. This treaty, although not a 
silver bullet to the threats that confront us, is a tremendous 
step forward in meeting our obligations under the 
nonproliferation treaty and reduces the chances of nuclear war.
    But equally important, Congress must provide the President 
with the authority to carry out, with the Russian's 
cooperation, the necessary destruction of weapons in Russia. 
Absent such action, our President and our Nation's good 
intentions will fail, because Congress refused to grant the 
President the authorization to see his and our goals through to 
conclusion.
    Thank you, Mr. Chairman.
    The Chairman. Thank you. Senator Hagel, did you want to 
make----
    Senator Hagel. No, Mr. Chairman.
    The Chairman. Let me just make two brief--not responses, 
but points with regard to your efforts, Senator Lugar to 
enhance, not see diminished, the cooperative threat-reduction 
efforts, I just want you to know you have my full cooperation 
and, I think, of the vast majority of the Members of Congress.
    Second, it is my intention, as I told the President 
yesterday when I saw him at the Police Memorial, to move on the 
treaty as rapidly--as soon as it's submitted. In his usual 
folksy way--he's a really engaging guy--we walked up on the 
stage, walking by, and he said, ``Well, it's a treaty, Biden, 
you owe me,'' or something to that effect.
    And so obviously, if I didn't move on it quickly, because, 
as you know, you and I were very straightforward about the need 
for there to be a treaty. But at any rate, so I assure you we 
will move that as rapidly as we possibly can.
    Our first panel will feature two of the most important 
strategic thinkers of our day. Admiral Bill Owens, retired Vice 
Chairman of the Joint Chiefs of Staff, gave us the, quote, 
``revolution of military affairs'' that brought information-age 
technology into the making of war. For the gulf war, Bosnia, 
and Kosovo, and, most recently, Afghanistan, we've seen new 
vistas in the use of precision-target military force that I 
think Admiral Owens is most responsible for. He is now the co-
CEO of Teledesic, which he will speak both as a warfighter and 
one who has looked carefully at the future of war.
    And Dr. John Foster, a former Director of Lawrence 
Livermore National Laboratory, served also as the Director of 
Defense Research and Engineering. In recent years, he's headed 
important expert panels on the state of our Nuclear Stockpile 
Stewardship Program and in our readiness to resume nuclear 
testing. Dr. Foster's recommendations have prompted a political 
debate, and I hope he'll expand on that and explain to us what 
an increased test-readiness program can realistically achieve 
and why we need it and why, in his view, there is nothing to be 
feared by such a test--such a proposal.
    Dr. Foster, I understand you have a time constraint. Is 
that correct?
    Dr. Foster. Yes, Mr. Chairman.
    The Chairman. Admiral Owens, would you mind if we begin 
with Dr. Foster?
    Admiral Owens. Not at all, Senator.
    The Chairman. Dr. Foster, the floor is yours.

   STATEMENT OF JOHN S. FOSTER, JR., PH.D., FORMER DIRECTOR, 
   LAWRENCE LIVERMORE NATIONAL LABORATORY; FORMER DIRECTOR, 
                DEFENSE RESEARCH AND ENGINEERING

    Dr. Foster. Thank you very much, Mr. Chairman, members of 
the committee. In 1999, Congress established the Panel to 
Assess the Reliability, Safety, and Security of the United 
States Nuclear Stockpile. This prepared statement represents 
the views of my fellow panel members, Dr. Harold Agnew, Dr. 
Sydell Gold, Mr. Stephen Guidice, and Dr. James Schlesinger.
    The panel observed the nuclear weapon program for 3 years. 
We issued our third and final report last March. In performing 
our assessments, the panel used as a benchmark the longstanding 
commitment of this and previous Presidents that sustaining 
confidence in U.S. nuclear deterrent capabilities is a supreme 
national interest. Our work has focused on the steps necessary 
to manage the weapons stockpile and its supporting program 
accordingly.
    You've invited me to comment on issues related to the 
Nuclear Posture Review. The NPR addresses questions involving 
both technical and policy considerations that go beyond the 
scope of the panel's charter. There are, nevertheless, several 
areas in common. And in those areas, the panel found the NPR to 
be quite constructive. Many of the programs and initiatives in 
the NPR address the panel's concerns that the Nation needs to 
do better if we are to do the best we can to sustain confidence 
in the stockpile without nuclear tests.
    My remarks today will cover those common areas. The panel 
did not address issues related to the size of the stockpile, 
either active or inactive. We did not assess the logic of the 
proposed new triad or strike capabilities, defensive 
capabilities, and infrastructure; nor did the panel examine 
specific requirements for new weapons. But major challenges 
remain.
    I begin with the context. The panel and the NPR describe 
the current situation with the weapons program in much the same 
way. The program is entering a very challenging new phase that 
will challenge the Nation's ability to sustain the existing 
stockpile.
    Weapons are aging. Some mainstay weapons, such as the W76 
Trident warhead, are already reaching their 20-year design 
life. Several weapons are showing disturbing signs of 
deterioration and other problems. Owing to improvements in our 
assessment tools, we now are discovering that we had been 
overconfident in assessing some of our existing weapons. The 
W87 ICBM warhead is being refurbished. Last year the decision 
was made that three more warhead types, the W76, the W80, and 
the B61 bomb, will undergo extensive refurbishment in the 
coming decade.
    Sustaining high confidence in these complex systems as we 
introduce different components, new materials, and new 
production methods, make design changes to warheads, and 
utilize a new generation of people, assessment tools, and 
refurbished facilities, is an unprecedented technical challenge 
for the laboratories and the production complex. Under these 
difficult circumstances, I don't think that anyone should be 
surprised that the confidence in the nuclear test pedigree is 
deteriorating. Stewardship must adapt.
    To sustain confidence in the face of these challenges 
requires a transformation of the weapons program. The necessary 
tasks ahead demand capable tools, people, and facilities, as 
well as the most rigorous available processes for designing, 
assessing, certifying, and manufacturing our nuclear warheads. 
The panel outlined intiatives in six areas. Each of these areas 
was addressed to some degree in the NPR.
    First, it is imperative that we strengthen stockpile 
surveillance, assessments, and certification. These processes 
are the day-to-day foundation for understanding stockpile 
safety and reliability. They also will be critical for judging 
our confidence in the warheads that will be refurbished over 
the next decade. As the technical challenge of maintaining the 
stockpile grows, these processes must be as rigorous and 
probing as the responsible stockpile stewards know how to make 
them. Decision makers need to be apprised of all the viable 
options for sustaining confidence. Key to this is sustaining 
the competition of ideas between the nuclear design 
laboratories, which has been a critical foundation for the 
weapons program for five decades and is the raison d'etre for 
two such laboratories.
    The panel recommends that the annual certification process 
entailed the identification of issues that may undermine 
confidence as an assessment of the relevant alternative options 
for sustaining confidence at each level of the assessment 
process--that is, the technical and the military and then the 
national.
    We also recommend broadening the scope of annual 
certification reporting to encompass issues concerning the full 
spectrum of capabilities necessary to sustain confidence. This 
would require significant changes to current practices 
affecting several executive branch activities and, the panel 
believes, national level guidance is needed to shape the needed 
process. The panel urges Congress to support our proposals for 
processes that would engage the laboratories, DOE, and DOD in 
obtaining an unvarnished and complete assessment of stewardship 
issues and options.
    Second, the administration and Congress need to articulate 
and fund a balanced, forward-looking weapons program and 
allocate resources to the highest priority deliverables. Such a 
program would meet requirements for weapons refurbishment while 
at the same time adequately supporting the exploration of 
advanced concepts and maintaining leading capabilities in 
weapons-relevant science and technology.
    NNSA, the National Nuclear Security Administration must 
provide the leadership by creating a program that defines the 
essential deliverables for stockpile stewardship and that shows 
how resources are allocated to provide these deliverables. A 
renewed focus on deliverable products is essential to drive the 
need for restoring the weapons complex and training a new 
generation of stockpile stewards and for assessing longstanding 
management deficiencies.
    This committee is well aware that other nations continue to 
maintain and adapt their nuclear arsenals and that there is 
continuing proliferation of weapons of mass destruction and 
their delivery methods. Technological surprise has occurred in 
the past and is something that we must guard against. The work 
on future concepts and technologies is needed to assess 
intelligence information, to avoid technical surprises, as well 
as to train stockpile stewards, and to provide alternative 
options for addressing any problems that may arise. The panel 
also emphasizes that it is essential for Congress to be kept 
apprised of developments in foreign weapons programs and their 
potential implications for U.S. security.
    Third, to sustain the nuclear stockpile, we must restore an 
adequate weapons complex. Today, many capabilities are missing 
or deficient. As you know, the United States is the only major 
nuclear power that is unable to manufacture the nuclear 
components for its nuclear weapons. Restoring these 
capabilities can take a decade or more. In the meantime, we run 
serious risks.
    A plan is needed to explain, and we need to get started 
now. The adequacy of the production complex is a critical 
factor in determining the appropriate size of the inactive 
reserve and of weapons and the pace of dismantlements. With the 
necessary capacity to repair or produce weapons, the United 
States can relieve our dependence on an inactive reserve.
    Fourth, test readiness needs to be addressed much more 
realistically. This is not because a need to test is imminent, 
but because prudence requires that every President have a 
realistic option to return to testing should a technical or 
strategic events make it necessary. Our current readiness to 
return to testing is 2 to 3 years. The panel recommends the 
administration and Congress support test readiness of 3 months 
to a year, depending on the type of test. When the Senate 
rendered its advice and consent to the START II Treaty, its 
resolution of ratification stated that the United States would 
commit to readiness to allow testing to resume within 1 year.
    Fifth, NNSA needs to provide the strong leadership Congress 
sought when it created that organization in 1999. The NNSA 
inherited an extremely difficult situation when it was created. 
DOE experienced large budget cuts in the early 1990s and was 
never able to establish a coherent long-range vision for the 
program that was consistent with the available resources. NNSA 
was created to address these challenges and to rectify other 
longstanding DOE management weaknesses. NNSA needs to establish 
clear lines of authority, responsibility, and accountability. 
Laboratory directors and plant managers should be tasked and 
enabled to meet the requirements, standards, time lines, and 
budgets established by the NNSA leadership.
    The panel reviewed NNSA's recent report on its proposed new 
organizational structure. In principle, the proposed approach 
can be made to work. It is now time for decisions, 
communication, and disciplined implementation.
    Sixth, while the panel's focus has been mainly on the NNSA 
weapons program, we also considered the related nuclear program 
activities in the DOD. Three specific actions are recommended. 
One, strengthening the Defense Threat Reduction Agency's 
programs for understanding weapons effects. Two, creating in 
DOD a systematic annual assessment of its delivery platforms 
and integrated nuclear systems that parallels the process for 
the weapons stockpile. And, three, reassessing the need for 
certain weapon requirements in view of the NPR, especially 
those relating to hostile environments.
    Expectations. The coming year will be critical in 
transforming the weapons program to meet the coming challenges. 
We should expect specific actions in several areas. Within this 
year, NNSA should complete its reorganization, resolve 
organizational relationships with DOE headquarters and develop 
a plan for reducing unnecessary administrative burdens. The 
Secretary of Energy should complete a review of DOE orders and 
directives and remove all unnecessary duplication of staffs. 
NNSA should clarify program management roles, responsibilities, 
and authorities. NNSA should create a future-years program plan 
and budget defining deliverables, priorities, and resources for 
meeting NPR objectives. This should include a credible program 
plan for reestablishing all of the capabilities needed for 
production of currently deployed warheads.
    Within the next 2 years, NNSA should implement new 
certification procedures that fully exploit the strengths of 
the national laboratories. Concurrently, there should be 
significant progress in reducing surveillance backlogs of 
critical items. Both NNSA and DOD should demonstrate test-
readiness of 3 months to a year, depending on the kind of test. 
DOD should publish a funded program plan for weapons-effects 
phenomenology, simulation, and test readiness that should 
complete at least one cycle of a new annual assessment process 
in which there is enhanced rigor in DOD surveillance and 
assessment.
    There remains an urgent need for NNSA to address the 
fundamental problems that Congress created it to correct. The 
startup phase is now over. If NNSA is unable to accomplish its 
tasks, Congress should take positive action to further 
strengthen the mandate and support needed to adequately manage 
the Nation's nuclear capabilities.
    Mr. Chairman, it's been this panel's privilege to address 
this vital national security concern. I thank you for providing 
me with this opportunity to share the panel's views, and I 
welcome any questions that the members may have.
    [The prepared statement of Dr. Foster follows:]

    Prepared Statement of John S. Foster, Jr., Panel to Assess the 
    Reliability, Safety, and Security of the United States Nuclear 
                               Stockpile

    Mr. Chairman, Members of the Committee. In 1999, Congress 
established the Panel to Assess the Reliability, Safety, and Security 
of the United States Nuclear Stockpile.\1\ My prepared statement 
represents the views of my fellow Panel members: Dr. Harold Agnew, Dr. 
Sydell Gold, Mr. Stephen Guidice, and Dr. James Schlesinger. The Panel 
observed the nuclear weapons program for three years. We issued our 
third, and final, report in March. In performing our assessments, the 
Panel has used as a benchmark the long-standing commitment of this, and 
previous, Presidents that sustaining confidence in U.S. nuclear 
deterrent capabilities is a supreme national interest. Our work has 
focused on the steps necessary to manage the weapons stockpile and its 
supporting program accordingly.
---------------------------------------------------------------------------
    \1\ The 1999 Strom Thurmond National Defense Authorization Act 
created the Panel to review and assess (1) the annual process for 
certifying stockpile reliability and safety, (2) the long-term adequacy 
of that process, and (3) the adequacy of the criteria to be provided by 
the Department of Energy for evaluating its science-based Stockpile 
Stewardship Program.
---------------------------------------------------------------------------
    You have invited me to comment on issues related to the Nuclear 
Posture Review. The NPR addresses questions involving both technical 
and policy considerations that go beyond the scope of the Panel's 
charter. There are, nevertheless, several areas in common, and in those 
areas the Panel found the NPR to be quite constructive. Many of the 
programs and initiatives in the NPR address the Panel's concerns that 
the Nation needs to do better if we are to do the best we can to 
sustain confidence in the stockpile. My remarks today will cover those 
common areas. The Panel did not address issues relating to the size of 
the stockpile, either active or inactive. We did not assess the logic 
of the proposed new ``triad'' of strike capabilities, defensive 
capabilities, and infrastructure. Nor did the Panel examine specific 
requirements for new weapons.
                        major challenges remain
    I will begin with the context. The Panel and the NPR describe the 
current situation with the weapons program in much the same way: The 
program is entering a very challenging new phase that will stress the 
Nation's ability to sustain the existing stockpile. Weapons are aging. 
Some mainstay weapons, such as the W76 Trident warhead, are already 
reaching their 20-year design life. Several weapons are showing 
disturbing signs of deterioration and other problems. Owing to 
improvements in our assessment tools, we now are discovering that we 
had been overconfident in the past in assessing some of our existing 
weapons. The W87 ICBM warhead is being refurbished. Last year the 
decision was made that three more warhead types (the W76, the W80 
cruise missile warhead, and the B61 bomb) will undergo extensive 
refurbishment in the coming decade.
    Sustaining high confidence in these complex systems is an 
unprecedented technical challenge for the Department of Energy, the 
laboratories and the production complex. We will be introducing 
different components, new materials, and new production methods; making 
design changes to warheads; and utilizing a new generation of people, 
assessment tools, and refurbished facilities. Under these difficult 
circumstances, I do not think that anyone should be surprised that the 
confidence in the nuclear stockpile, which is based on the nuclear-test 
``pedigree,'' is deteriorating.
                         stewardship must adapt
    To sustain confidence in the face of these challenges requires a 
transformation of the weapons program. The necessary tasks ahead demand 
capable tools, people, and facilities--as well as the most rigorous 
available processes--for designing, assessing, certifying, 
manufacturing, and maintaining our nuclear warheads. The Panel outlined 
initiatives in six areas. Each of these areas was addressed to some 
degree in the NPR.
    First, it is imperative that we strengthen stockpile surveillance, 
assessments, and certification. These processes are the day-to-day 
foundation for understanding stockpile safety and reliability. They 
also will be critical for judging our confidence in the warheads that 
will be refurbished over the next decade. As the technical challenge of 
maintaining the stockpile grows, these processes must be as rigorous 
and probing as the responsible stockpile stewards know how to make 
them. Decision makers need to be apprised of all the viable options for 
sustaining confidence. Key to this is sustaining the competition of 
ideas among the nuclear design laboratories. This has been a critical 
foundation for the weapons program for five decades, and it is the 
raison d'etre for two such laboratories.
    The Panel recommends that the Annual Certification Process entail 
the identification of issues that may undermine confidence, and an 
assessment of the relevant options for sustaining confidence--at each 
level of the assessment process (i.e., technical, operational military, 
and national). We also recommend broadening the scope of Annual 
Certification reporting to encompass issues concerning the full 
spectrum of capabilities necessary to sustain confidence. This would 
require significant changes to current practices affecting several 
executive branch activities, and the Panel believes national-level 
guidance is needed to shape the needed process. The Panel urges 
Congress to support our proposals for processes that would engage the 
laboratories, DOE, and DOD in obtaining an unvarnished and complete 
assessment of stewardship issues and options.
    Second, the Administration and Congress need to articulate a 
balanced, forward-looking weapons program, and allocate resources to 
the highest priority deliverables. Such a program would meet 
requirements for weapons refurbishments, while at the same time would 
adequately support the exploration of advanced concepts and maintain 
leading capabilities in weapons-relevant science and technology. NNSA--
the National Nuclear Security Administration--must provide the 
leadership, by creating a program that defines the essential 
deliverables and that clearly defines the resources allocated to 
provide these deliverables.
    A renewed focus on deliverable products and delivery schedules is 
essential to drive the need for restoring the weapons complex, for 
training a new generation of stockpile stewards, and for addressing 
long-standing management deficiencies.
    This Committee is well aware that other nations continue to 
maintain and adapt their nuclear arsenals, and that there is a 
continuing proliferation of weapons of mass destruction and their 
delivery methods. Technological surprise has occurred in the past and 
is something we must guard against. The work on future concepts and 
technologies is needed to assess intelligence information, to avoid 
technical surprises as well as to train stockpile stewards, and to 
provide alternative options for addressing any problems that may arise. 
The Panel also emphasizes that it is essential for Congress to be kept 
apprised of developments in foreign weapons programs and their 
potential implications for U.S. security.
    Third, to sustain the nuclear stockpile we must restore an adequate 
weapons complex. Today, many capabilities are missing or deficient. As 
you know, the United States is the only major nuclear power that is 
unable to manufacture the nuclear components for its nuclear weapons. 
Restoring these capabilities can take a decade, or more. In the 
meantime we run serious risks. A plan and program are needed to restore 
capabilities in the weapons complex, and we need to get started now.
    The adequacy of the production complex is a critical factor in 
determining the appropriate size and state of readiness of the inactive 
reserve of weapons and the pace of dismantlements. If we had the 
necessary capacity to repair or produce weapons, the U.S. could relieve 
our dependence on an inactive reserve.
    Fourth, test readiness needs to be addressed much more 
realistically. This is not because a need to test is imminent, but 
because prudence requires that every President have a realistic option 
to return to testing, should technical or strategic events make it 
necessary. Our current readiness to return to testing is two to three 
years. The Panel recommends the Administration and Congress support 
test readiness of three months to a year, depending on the type of 
test. The Panel recalls that when the Senate rendered its advice and 
consent to the START II Treaty in 1996, its Resolution of Ratification 
stated that the United States should maintain the Nevada Test Site at a 
level that would allow testing to resume within one year following a 
national decision to do so.\2\
---------------------------------------------------------------------------
    \2\ Congressional Record--Senate. January 26, 1996, S461. 
Resolution of Ratification. Treaty with the Russian Federation on 
Further Reductions and Limitation of Strategic Offensive Arms (The 
START II Treaty). Paragraph (12), subparagraph (F).
---------------------------------------------------------------------------
    Fifth, NNSA needs to provide the strong leadership Congress sought 
when it created that organization in 1999. NNSA inherited an extremely 
difficult situation when it was created in 1999. DOE experienced large 
budget cuts in the early 1990s, and was never able to establish a 
coherent long-range vision for the program that was consistent with the 
available resources. NNSA was created to address these challenges, and 
to rectify other long-standing DOE management weaknesses.
    NNSA needs to establish clear lines of authority, responsibility, 
and accountability. Laboratory directors and plant managers should be 
tasked and enabled to meet the requirements, standards, timelines, and 
budgets established by the NNSA leadership. The Panel reviewed NNSA's 
recent report on its proposed new organizational structure. In 
principle, the proposed approach can be made to work. It is time now 
for decisions, communication, and disciplined implementation.
    Sixth, while the Panel's focus has been mainly on the NNSA weapons 
program, we also considered the related nuclear program activities in 
DOD. Three specific actions are recommended: 1) strengthening the 
Defense Threat Reduction Agency's programs for understanding weapons 
effects; 2) creating in DOD a systematic annual assessment of its 
delivery platforms, command and control, and other systems needed to 
perform a nuclear mission, that parallels the process for the weapons 
stockpile; and 3) reassessing weapon requirements in view of the NPR.
                              expectations
    The coming year will be critical in transforming the weapons 
program to meet the coming challenges. We should expect specific 
actions in several areas.
Within this fiscal year:
  <bullet> NNSA should complete its reorganization, resolve 
        organizational relationships with DOE headquarters, and develop 
        a plan for reducing unnecessary administrative burdens. The 
        Secretary of Energy should complete a review of DOE orders and 
        directives, and remove all unnecessary duplication of stafff.

  <bullet> NNSA should clarify program management roles, 
        responsibilities, and authorities.

  <bullet> NNSA should create a future years program plan and a 
        transparent budget defining deliverables, priorities, and 
        resources for meeting NPR objectives, with a clear connection 
        between resources and deliverables. This should include a 
        credible program plan for reestablishing all of the 
        capabilities needed for production of currently deployed 
        warheads.
Within the next two years:
  <bullet> NNSA should implement new certification processes that fully 
        exploit the strengths of the weapons laboratories. 
        Concurrently, there should be significant progress in reducing 
        surveillance backlogs of critical items.

  <bullet> Both NNSA and DOD should demonstrate test readiness of three 
        months to a year, depending on the kind of test.

  <bullet> DOD should publish and implement a funded program for weapon 
        effects phenomenology, simulation, and test readiness, and 
        should complete at least one cycle of a new annual assessment 
        process in which there is enhanced rigor in surveillance and 
        assessment of DOD assets.

    There remains an urgent need for NNSA to address the fundamental 
problems that Congress created it to correct. The start-up phase is now 
over. If NNSA is unable to accomplish its tasks, Congress should take 
positive action to ensure that the nation's nuclear capabilities are 
adequately managed.
    Mr. Chairman, it has been this Panel's privilege to address this 
vital national security concern. Thank you for providing me with this 
opportunity to share the Panel's views. I welcome your questions.

    The Chairman. Thank you very much, doctor. I'm going to go 
to Admiral Owens now, and then if--I hope you are able to stay 
for questions. If you can't, we understand. We'll submit them 
to you in writing. But I'm fearful, after consulting with Mr. 
Lugar, that there may be a vote on the floor, and I want to 
give Admiral Owens a chance to get his full statement in before 
that happens, if it does occur.

 STATEMENT OF ADM. WILLIAM A. OWENS, U.S. NAVY (RET.), FORMER 
  VICE CHAIRMAN OF THE JOINT CHIEFS OF STAFF; CO-CEO AND VICE 
             CHAIRMAN, TELEDESIC LLC, BELLEVUE, WA

    Admiral Owens. Well, thank you, Senator. It's a great 
pleasure to be here with you and to be a co-panelist with a 
gentleman I admire very much, John Foster. I would ask that I 
not read the full statement. I'd like to give you 4 or 5 
minutes of an overview, if I may, and leave time for 
discussion, if that's OK?
    The Chairman. Without objection, your entire statement will 
be placed in the record.
    Admiral Owens. Thank you, sir.
    I'd like to just comment that it's trite at this point in 
the history of our country to say that the world is a different 
place. And so, in light of the fact that there are so many 
dramatic changes around us in this world of terrorism and 
weapons, et cetera, it seems to me that the mandate is for 
change. And I wonder, if we look back on the year 2002 from the 
year 2012 or 2017, and we evaluate what has happened to us in 
the last 10 or 15 years, if we won't ask ourselves if we 
thought seriously and broadly enough about this whole range of 
nuclear weapons. And so I'd offer a few observations.
    First--and these will be very brief--I see no real threat 
of large-scale nuclear attack against this Nation. Second, I 
think we're all well aware that there are literally thousands 
of nuclear weapons in Russia, not only the strategic ones, but 
the tactical ones, and they are dispersed in 40 facilities 
around the Russian countryside. Arguably, those 40 dispersed 
facilities are more or less secure, but one has to wonder if it 
is in our best interest to have large numbers of nuclear 
weapons stored in those facilities. In that regard, I couldn't 
offer stronger support for the cooperative threat reduction 
efforts of Senator Lugar and Senator Nunn. I think they're 
enormously important, and I hope that the beat goes on, in 
terms of supporting them.
    Tactical nuclear weapons seem to be a marginal discussion. 
I can't imagine why. We read in the Washington Post and every 
other newspaper in this country about the strategic nuclear 
weapons reductions and going to 1,700 to 2,200 in the year 
2012, but where is the discussion of tactical nuclear weapons, 
the thousands that the Russians have versus the many hundreds 
that we have, and are they not important? My view would be that 
those are the most proliferable of nuclear weapons, and there 
should be a keen focus on those tactical nuclear weapons.
    I think another area that is being only marginally 
addressed is the area of cruise missiles with nuclear weapons 
onboard. And surely that has to be of great concern. As we look 
at the next 9/11, is it not very probable that it could come in 
the form of cruise missiles readily available on the world 
market whether it has a nuclear weapon or otherwise onboard? We 
need to be looking at that capability. And, of course, national 
missile defense doesn't provide an answer for that problem. So 
those missiles with a nuclear weapon are clearly of great 
concern.
    I would offer that many solutions are not timely enough, 
that as we look back 15 years from now we'll ask ourselves if 
we couldn't have done it faster. And so while I salute this 
administration for its efforts to reduce the nuclear weapons 
and bringing the treaty to this body for approval, and I think 
it's definitely a step in the right direction, I believe that 
it should happen much faster than 2012. And if there are ways 
that we can do it faster, we should try to find those ways.
    I'm concerned about ``dirty'' nuclear weapons, and that's a 
big issue, as we all know. The simple weapon--conventional 
explosives, with very radioactive, contaminating material in 
it--is a great threat to this Nation as we look at terrorist 
attacks in the future.
    And it's, for me, very difficult to see how we have a use 
for several thousand nuclear weapons, whether it's the 2,000 
with a significant responsive force--I don't know what the 
possible use for those nuclear weapons is today or in the 
future for that number. Is it--I can't imagine, unless it is 
some fear of what happens in Russia. And so we must maintain a 
readiness to deal with that. But, at the same time, it seems to 
me, as a Nation, we should be leading, in terms of trying to 
reduce the number of weapons below the numbers that are 
presently on the table.
    Likewise, I think it's very problematical about what the 
use is for the U.S.-NATO nuclear capability. It has been seen 
in years past as an element of melding NATO together. And yet 
today, I think it stands in the way of addressing directly the 
tactical nuclear weapons inventory on the Russian side. And so 
we hear very little discussion of the U.S. tactical nuclear 
capability in Europe, and I think it's very important.
    And, finally, I question whether the use of nuclear weapons 
as an answer--as a deterrent for the use of biological and 
chemical weapons makes sense. Would we not want to be the ones 
who are leading the answer to deterence against those kind of 
weapons with other kinds of responses, rather than suggesting 
that we would respond with a nuclear weapon as a direct 
capability of this Nation?
    So I think we need real change. And let me just mention 
three or four areas of significant--I would call them ``bigger-
picture changes'' that we might entail in this Nation that 
should be a part of the discussion. I'm certain these are not 
the right answers, but I'm also certain that we need to think 
about this much more broadly than we have in the past.
    So, first of all, the issue of when changes could occur. Is 
it possible that we could look at a third-country storage area 
where we could put excess nuclear weapons from this country and 
from the Russian inventory in a very secure, monitored storage 
which the Russians and we monitored and was monitored by an 
international body of some sort? One could conjecture on where 
that might be, and it's probably wrong to say where it could 
be, but I think that it is possible, and that might allow us 
not to get to a lesser number of nuclear weapons a few years 
from now, but next year! And we should look seriously at 
permanent storage under the surveillance of trusted parties, 
including ourselves and the Russians, in another nation.
    I think that we have an enormous capability in the world of 
the revolution of military affairs information-technology data 
links to be able to put an ``American information umbrella'' 
over suspect parts of the globe, be that the facilities in Iraq 
or the facilities in North Korea, and to monitor them 24 hours 
a day, real time, all weather--the unmanned aerial vehicles, 
Global Hawk/Predator, many airplanes, tactical sensors, all 
data linked, give us a capability to see the ground in many 
ways that I think many may not fully appreciate--and then to 
have a deterrence structure built around that information 
umbrella.
    And it may have become time to think of the information 
umbrella as a serious part of our deterrence strategy as 
opposed to the nuclear umbrella. It applies to North Korea. It 
applies to Iraq. And it could apply to many other areas. You 
could easily see that if you had such an umbrella, there are 
many things we could say, in terms of diplomatic absolutes, to 
an offender, ``Don't do x or we will do y,'' that make enormous 
good sense to me and, I think, have had very little discussion.
    I think we could find a way with the Russians to absolutely 
and transparently control what happens after we destroy a 
nuclear weapon. When it's destroyed, there is still material. 
It is weapons grade. In some instances it is diluted weapons 
grade, and there is a lot of waste material. And we need to be 
able to address those issues. That's not a part of the 
discussion today. We need to be able to address those kinds of 
issues in a transparent, accountable way, because they are very 
much subject to being proliferated.
    I support strongly the Nunn-Lugar Threat Reduction Program, 
and we should fund it and fund it and fund it.
    I think we should find a way to develop a very good 
business with the Russians for safe, secure, transparent, 
transportable capability for nuclear weapons and nuclear waste 
around the world. When it is transported, it is a huge problem 
that we're all aware of, political in every nation in this 
world. And we and the Russians own the technologies to allow 
the safe, secure, accountable transportation of all of those 
kinds of materials, and we should get on with finding a way to 
do that as a cooperative scheme with the Russians. We need to 
put a lot of focus on tactical nuclear weapons.
    And that brings us to the issue of NATO. And we have to 
question seriously whether the new NATO, the expanded NATO, is 
best served by having a continued nuclear umbrella as a part of 
it, and yet the discussion there is not present.
    Finally, the cruise-missile threat, I think it does need to 
be a part of these discussions.
    And, in overview, I think this is a new world. Relevant 
new-world thinking needs to be brought to this whole area. And 
I know many of you are sponsoring much of that, and I salute 
you for that.
    And it's been my privilege to talk to you here this 
morning.
    [The prepared statement of Admiral Owens follows:]

 Prepared Statement of Adm. William A. Owens, U.S. Navy (Ret.), former 
 Vice Chairman of the Joint Chiefs of Staff; co-CEO and Vice Chairman, 
                      Teledesic LLC, Bellevue, WA

    This testimony is primarily focused on the need for substantive 
CHANGE. Military institutions are by nature conservative, cautious of 
fads, and hesitant to rush headlong into change. Their conservatism is 
founded on experience, for they have learned, often very painfully, 
what can happen when they make the wrong changes and that they could be 
expected to deliver weapons while in the ``midst of change.'' So, while 
the risks of being defeated in mankind's deadliest competition (WAR) 
drive militaries to innovate, those same risks inhibit accelerated 
change and rapid innovation. History suggests that there rarely are 
revolutions in the way we conduct national defense, and that is even 
more true in the matters of nuclear weapons, their doctrine, and the 
theory of use. It has now been over a decade since the demise of the 
bipolar world, for which we built our nuclear forces. Our hesitation to 
boldly change stems from many factors. But, I propose that in the face 
of a vastly different set of world conditions, we must change 
significantly, and we must include in that change the entire area of 
nuclear forces and deterrence.
    There has been considerable discussion about the Nuclear Posture 
Review, about Strategic Nuclear weapons reductions, about the ABM 
treaty and how it has been handled, about the Non-Proliferation Treaty, 
the Comprehensive Test Ban Treaty, the National Missile Defense 
capability, and about the demise of the Russian nuclear capability. I 
want to try to stay away from too much of the detail of these very 
important subjects and try to provide some context for discussion (or 
argument), for it's my belief that unlike the normal approach to 
military planning, e.g. be very cautious or we might break something, 
the most negative approach we could now take would be to NOT undertake 
significant change. First a set of observations:

    <bullet> There is no real threat of large scale nuclear attack from 
any country (unless there was a complete failure of government and a 
very unstable leadership developed in Russia).

    <bullet> There are literally thousands of nuclear weapons 
(strategic and tactical) in about 40 dispersed facilities in Russia, 
which arguably over the last decade have had questionable security. The 
officers overseeing them are often poorly paid, living in remote areas, 
and poorly equipped with available modern security capabilities. There 
have been occasional reports of hunger strikes at a few of these 
facilities.

    <bullet> Tactical nuclear weapons numbering in the ``several 
thousands'' for the Russians vs. ``many hundreds'' for the U.S. are 
generally UNADDRESSED, or at least only marginally noted, in most of 
the current rhetoric, treaties, and discussions. Note: These weapons 
are not too different in destructive power from those used in Hiroshima 
and Nagasaki. These, arguably are the weapons over which the Russians 
have had less control in terms of inventories, security procedures, 
etc.

    <bullet> Cruise missiles with nuclear warheads are also in the 
``marginally addressed'' category. These weapons are considerably 
easier to build, much more accurate, and much less visible to 
intelligence sources. They also are not addressed by our National 
Missile Defense initiative, except in footnotes. They could be the 
essence of a future 9/11 attack, but think about a dozen or so of them 
precisely targeted on particular places; the West Wing, the Speaker's 
office, several industry leaders, etc.

    <bullet> Many ``solutions'' are not timely, envisioned to take 
place not over months, but over many years, and in some cases the ``cow 
has been out of the barn'' for a decade.

    <bullet> America is unquestionably unapproachable in nuclear 
weapons capability, not only for the present, but as best as most of us 
can see, for many decades. In this regard, our reputation in the world 
and the future of nuclear weapons will depend upon how we ``handle 
ourselves,'' what we do, what we say, what our budget funds, and how we 
deal with other world powers. Article VI of the NPT obligated each 
Party ``to pursue negotiations in good faith on effective measures 
relating to cessation of the nuclear arms race at an early date and to 
nuclear disarmament.'' We must be careful that our actions do not cause 
others to doubt our sincerity and to take actions that would spur on 
either an unhealthy arms race or worse in generations ahead lead to the 
availability of capability which others could use to threaten our 
Country.

    <bullet> ``Dirty Nuclear Weapons'' are little addressed in terms of 
substantive policy direction or initiatives. There is considerable 
evidence that non-weapons grade materials are available and well known 
to terrorist organizations. There has been reference to an incident of 
Cesium-137/Strontium 90 use in a Moscow park in 1995. General Dudayev, 
the former head of the Chechyen Independence movement noted that this 
was only a ``scant portion of the radioactive substances which we have 
at our disposal.''

    <bullet> It's very difficult to imagine what possible use we could 
have for several thousand offensive nuclear weapons. If our new 
relationship with Russia is indeed built on a new trust (like that we 
have with France or Great Britain?), and if we are indeed not to target 
them, it is hard to imagine what ``requirement'' we have for the 
present number of strategic nuclear weapons in our arsenal or the 
planned numbers for the future, including the fully diluted year 2012 
number of 2000 operational nuclear weapons, let alone the ``response 
force'' of several thousand more. We should remember that this 
capability costs this nation significant taxpayer dollars, dollars 
which might go to some of the threats mentioned above or to other 
important national defense priorities. Even more importantly, the 
perception of our Country as not being sincere about reducing the 
viability of nuclear weapons and fostering a continuing arms race is 
damaging.

    <bullet> In light of the above it is also difficult to ascertain 
the purpose of the U.S.-led NATO/European nuclear capability.

    <bullet> If there is a perceived use of nuclear weapons for 
deterring the use of chemical or biological weapons, it would appear to 
be weak at best. We have a very convincing conventional force which is 
likely to be a much more effective deterrent, and we do have an ability 
to use it pre-emptively when we know that such a capability is being 
developed. Are we not better to take a position against the use of 
nuclear weapons for such deterrence. . . . ``Use Chemical or Biological 
weapons against us or our allies, and your life will not be the same. 
We have the ability to eliminate those who would use or sponsor such a 
use, and we do NOT need to use nuclear weapons!''

    So, could I give you some thoughts on big ideas? Let me suggest 
just a few for consideration:

    <bullet> First, There is a real issue with WHEN changes occur. 
Could we and the Russians reach agreement to put large numbers of 
excess strategic and tactical nuclear weapons in third country 
``permanent storage'' under the surveillance of ``trusted parties,'' in 
which complete transparency and security of the weapons is maintained? 
Such a plan could be implemented in months vs. years, and could be the 
basis for true downsizing without the threat of loss of control of the 
weapons in the ensuing years. It could also include OTHER nations and 
be the basis for real confidence in general global downsizing.

    <bullet> Second, we could develop Information Umbrella(s) which 
could be used to provide information to support nuclear deterrence, 
perhaps information about precisely what is happening in Iraq around 
the CBW facilities?, or in North Korea around the missile facilities?, 
or in Iran around suspected nuclear development sites? Or ?? Such 
information umbrellas would be developed from sensors on satellites, 
unmanned aerial vehicles, and a number of other aircraft in our present 
inventory. All information could readily be ``fused'' to provide a 24 
hour a day, real-time, all weather accurate picture of the entire area 
(country?). We could readily put 5 or 6 of these in place around the 
world positioned optimally to give America the best strategic picture 
of crisis areas. And could we develop deterrent strategies using that 
information, e.g. ``don't do . . . or we will . . . (such message for 
public or private delivery). Is this a more effective plan than the 
Nuclear Umbrella which we have provided for our NATO or Japanese or 
Korean allies?

    <bullet> Third, with the Russians we could find ways to absolutely 
and transparently account for and control (1) the nuclear materials 
which remain after the destruction of nuclear weapons, and (2) nuclear 
waste which results from commercial or military nuclear plants as well 
as other nuclear residue (remembering the dirty nuclear weapon threat).

    <bullet> Fourth, continue with a much more aggressive Nunn-Lugar 
Cooperative Threat Reduction program with a focus on both strategic and 
tactical nuclear weapons. It might be the best money we spend to help 
the Russians destroy their nuclear arsenals. How much is too much to 
spend on such an important program?

    <bullet> Fifth, develop U.S/Russian cooperative programs which 
could make money for cooperating businesses from both countries which 
allow for transparent, safe, constantly monitored (modern 
communications/GPS/etc.), accountable, and secure global transportation 
of both weapons grade and diluted weapons grade nuclear materials, as 
well as nuclear waste. Note that the U.S. has purchased 500 MT of 
``blended-down'' nuclear weapons grade materials for use in our 
commercial nuclear power plants. This is big and very important 
business and could be critical for the absolute control of these 
nuclear materials. There is a potential market of a few billion dollars 
of revenue in this business, and there is no focus for the activity 
today. As a matter of policy and implementation we should proceed with 
this kind of initiative now.

    <bullet> Sixth, put some focus on tactical nuclear weapons where we 
are faced with thousands of Russian weapons (as compared to a few 
hundred for us). And the Russian weapons are arguably controlled far 
less rigorously than their strategic weapons. This would require a 
focus on our nuclear policy as it relates to NATO. NATO and the 
bilateral security treaties we maintained during the Cold War had a 
sublime logic based on mutual utility. They reconciled our desires to 
gain both tangible and political support from our allies, with our 
allies' desires to influence and control the views, and, more 
importantly, the actions of the United States, the superpower with 
which they were allied. NATO and our alliance with Japan offset the 
Soviet military threat. But it also provided an internal balance in the 
face of the profound military-technical disparity represented by our 
nuclear weapons. Germany and Japan, and for a while France, agreed to 
forego developing nuclear weapons in exchange for an American nuclear 
umbrella. We promised, in turn, to deter Soviet military action by the 
threat of nuclear escalation and backed our promise by forward 
stationing American forces on the territory of our allies. Our allies, 
in exchange, acquiesced to American alliance leadership. We, in 
exchange, agreed to procedural and institutional constraints on our 
freedom to act unilaterally. NATO and our alliance with Japan deterred 
a common threat. But equally important, they assured a mutually 
beneficial balance among the members, a balance that was greatly 
unbalanced in terms of their military power and ours. But Europe and 
the Russian threat has changed. Arguably the threat of Russian tactical 
nuclear weapons is much more important than is the possession of a 
small NATO nuclear force. That nuclear force hardly melds the alliance 
in this new world, and it is very likely that the security of Europe 
would be greatly enhanced if both we and the Russians eliminated all 
tactical nuclear weapons. A good case could be made that a U.S./NATO 
Information Umbrella mentioned above could be an important element of a 
replacement strategy. The key, of course, would be our willingness to 
share the U.S. information edge. This would mean opening access to our 
national technical capabilities wider than we have been willing to do 
in the past and sharing the fruit of those and our other capabilities 
more broadly than we have done before. But like the nuclear umbrella 
before it, a U.S. ``information'' umbrella could reinforce a mutually 
beneficial relationship between the United States and our allies.

    <bullet> Seven, address the cruise missile threat. If there is a 
plausible pseudo-military threat to our Country it is this one. These 
missiles are inexpensive, accurate, fly several hundred kilometers, are 
relatively easy to acquire, and can deliver nuclear, chemical or 
biological weapons. The ability to put together ``systems of systems'' 
(space, air, and ground sensors, computer networks, and bandwidth 
communications) to address this critical threat would be of vast 
benefit to the protection of our Country and our allies. It needs 
dedicated focus and considerable funding.

    It is my conclusion that original new-world-relevant thinking is 
more necessary now than it has ever been. There will be many better 
ideas than those addressed above. But it seems that there is a mandate 
to truly change in a World which is truly changed.

    The Chairman. Thank you very much, Admiral Owens. We are--
doctor?
    Dr. Foster. Mr. Chairman, I apologize very much to this 
committee, but I must leave at this moment. I wanted very much 
to be able to take your questions while I'm here, but I can't. 
And I look forward to any questions you would----
    The Chairman. We'll submit them in writing. As you're 
getting up to leave, I'll ask you one--I thought you were 
nodding in agreement with the first several recommendations of 
Admiral Owens. Was I correct?
    Dr. Foster. Yes, I agree with many of the points he made.
    The Chairman. I thank you, and you are excused. And with 
your permission, we will submit some questions to you.
    Dr. Foster. Thank you very much, Mr. Chairman.
    The Chairman. Thank you for being here, and I apologize for 
starting late.
    Admiral, I don't want to ruin your reputation, but your 
testimony is music to my ears and I think to many here.
    Now, that may hurt you. I am not at all certain. But if 
Senator--I noticed Senator Lugar nodding, as well, so that may 
help you, and I suspect Senator Hagel shares some of the same 
admiration for what you've had to say.
    If you will allow us, it would be--we all three have a 
keen, keen interest in what you had to say. And rather than do 
what we usually do, is one of us leave and go vote and the 
others come, all three of us are very much interested. Would 
you indulge us, and we'll recess for 10 minutes, run over and 
vote and come back, because----
    Admiral Owens. Sure, Senator.
    The Chairman [continuing]. We very much want to speak to 
you. OK?
    Admiral Owens. Thank you.
    The Chairman. Thank you. We'll recess for 10 minutes.
    [Recess.]
    The Chairman. The hearing will come to order. Since Senator 
Lugar got back here first, why don't you begin with the 
questions?
    Senator Lugar. Well, thank you very much, Mr. Chairman.
    Admiral Owens, the suggestions that you have made and that 
the chairman has already commented on received many assenting 
nods and I think they are a good collection of suggestions from 
which to proceed. I want to ask about two or three of them.
    First of all, you talked about the transparency through 
monitoring from satellites from--in a real-time situation. 
Could you provide more detail on your views on how this might 
work.
    Let us say, for example, that our government had a list of 
countries with weapons-of-mass-destruction and associated 
laboratories and materials. As I understand your proposal, we 
would do our best, through national tactical means, rather 
intelligence means, to divine where these places are and what 
they are doing. Ideally, we would have cooperation with Russia 
in that respect and maybe other countries, who, in the same 
spirit of the current war effort, are sharing intelligence, 
because this is the heart of the matter with regard to success 
in the war against terrorism.
    So let us say we get this cooperation. How would we 
accomplish this task? Can you actually launch enough satellites 
to maintain real-time imagery in a way that, as you've 
suggested, the whole world monitors what is going on, and can 
detect telltale signs that could lead to action based upon the 
evidence that is produced.
    Admiral Owens. Right, Senator. Well, I think it is at the 
crux of the issue on the information umbrella. It is really in 
this Nation's capability today to do much more with information 
technology than we do in DOD and in our other agencies. The 
information umbrella, I think, can be constructed of existing 
technology. It's not a future kind of thing, but it is a 
different cultural kind of thing. It is to lead with our 
information strength--not to lead with ships and tanks and 
airplanes, but to lead with information technology. And I think 
what that means is, yes, there are satellites, and, of course, 
they are orbiting and passing, and so you don't get continuous 
information, but we do have these remarkable new technical 
capabilities of unmanned aerial vehicles, the Global Hawk, at 
70,000 feet above an area, pretty much out of the range of most 
surface-to-air missile systems and, if used wisely, can be kept 
outside of the range of missile systems. We have Predators, and 
we have long-range systems that have the ability to detect 
moving targets on the ground with what we call ``MTI sensors.''
    If you put these various sensors together--and we have 
companies in the commercial marketplace in this country that 
can do that readily with new software--Java, C++--tying 
together data links and sensor links, and then being able to 
deliver the 24-hour-a-day, real-time, all-weather picture of a 
large area. A hundred-mile diameter I think is very doable. And 
if you knew four or five places in the world that were 
suspect--maybe it's Pyong Yang, North Korea; maybe it is Iraq, 
and we know pretty much, I think, where those facilities might 
be--then we could lead with the information umbrella, establish 
with our friends and allies in the region that this is meant to 
be a deterrent position, and deliver demarches to the Iraqis to 
the extent--or the North Koreans or whoever the suspect country 
is--that, ``Here is a list of things you may not do. You may 
not move vehicles from one facility to another. You may not 
have people going in or out of that facility. And the answer to 
your getting this new kind of sanctions lifted is to allow 
full-time inspectors on the ground.''
    I think much of that could be dealt with either quietly, in 
diplomatic circles, or openly. We have the technical ability to 
do this in several areas around the world. It is our great 
strength, this information technology, and I think this is the 
kind of thing that might make for real deterrence for someone 
who is considering doing some bad things with weapons of mass 
destruction.
    The Chairman. Does the Senator mind if I intervened? I 
think you're dead right. It's one of those ideas that seems to 
be so self evident that it would make sense to do it--I always 
wonder why we don't. But you indicated the need for 
surveillance systems that are out of the range of surface-to-
air missiles. It would seem to me that that wouldn't matter, 
that obviously, if someone uses a surface-to-air, by 
definition, there is a problem, and we should be able to build 
that in.
    Admiral Owens. Senator, I agree. There is this issue that--
with the advent of unmanned aerial vehicles and, therefore, the 
ability to preclude loss of life when one of them is shot down, 
that as soon as someone shoots at one, you know from whence the 
missile came, and you can put a missile quickly onto that spot, 
and at least that missile site won't shoot down the next 
unmanned aerial vehicle. So I think there are some very 
interesting deterrent policies that can be built around that 
kind of capability.
    The Chairman. Excuse me for interrupting.
    Senator Lugar. No, that's all right. But let me carry this 
further. Now, this is not hypothetical, because we're in a war 
against terrorism, and a good number of us have suggested that 
this means seriously making certain that every area that has 
weapons of mass destruction or materials is secure. Now, we 
would ask, for example, of our friends in Pakistan and India to 
make certain that--whatever they have, that it's secure. It is 
imperative as far as we're concerned, and the rest of the 
world, that these weapons do not fall into the wrong hands.
    Now, at some point, we may run into somebody who seriously 
objects to this--perhaps the Iraqis, who would say, ``Well, 
it's none of your business.'' Now, at this point, it's been 
proposed by some that we would ultimately get into a military 
conflict over the access to their suspected WMD sites. If what 
you're saying follows through--for example, you issue 
demarches. You say, ``You cannot run a truck up to the plant, 
or people cannot come and go.'' Well, let's say the Iraqi 
leader says, ``Let's test the system.'' And so, in fact, two 
trucks drive up. Now, at this point, there is a big difference, 
obviously, between an all-out war against Iraq and what might 
be called a ``surgical strike'' in which the two trucks are 
eliminated. In other words, to follow this through, you have 
maybe a different kind of tactic for a successful war against 
weapons of mass destruction, proliferation, interdiction of all 
of this.
    Am I moving well beyond the curve of the doable? You start 
with diplomacy, but the information may also lead to military 
action, and it could be very specific. In the same way that, in 
Afghanistan, we tried very hard to have no collateral damage 
through precision guided munitions and command, control, and 
communication capabilities combining ground, air, and naval 
forces. And is this doable as we get into this larger situation 
of multiple nations and many threats of proliferation?
    Admiral Owens. Well, Senator, I think you raise a number of 
interesting points. I do believe that--and when I was the Vice 
Chairman, I did a number of studies inside the JROC environment 
and the joint warfare capability assessments that, with the 
fusion of these many sensors, you really can see very, very 
clearly with very high resolution the area that you are looking 
at. Probably some of those technologies we shouldn't talk about 
in open hearing, but there is a great capability to integrate 
SIGINT and HUMINT and IMINT, imagery intelligence, and MASINT, 
the sum of all of the INTs, if you will, into a fused picture 
of that area.
    We do have the ability to do that, but we don't do it for 
some reason, because one platform belongs to one agency or 
service and another one belongs to another, and the data links 
don't work together, and the COM structure doesn't work 
together. So, for some reason, we haven't quite gotten to the 
stage where we could do it, but that's not because of lack of 
technology, it's because of the culture in which we live.
    Now, if we saw information technology as truly being our 
great strength, then I think we have the ability to do the 
kinds of things that you suggest. And we have also the great 
precision and flexibility to tune the policy to the situation. 
If, in fact, Saddam Hussein started to drive trucks with women 
and children down the road, we may find a way to deal with this 
that isn't to target every truck, but you could make it very 
public that we are going to do this, and then if he does it, it 
is he who is responsible, not we.
    So I just think that there is an enormous capability here, 
in our country and no other country, that we should take 
advantage of strategically. And, you know, if we're worried 
about the North Koreans launching a ballistic missile, then we 
should have this kind of information umbrella over that launch 
erector. And when they erect, that would be the one thing we 
say, ``Do not take a missile to the launch pad, and do not 
erect.'' And----
    The Chairman. And if you do----
    Admiral Owens [continuing]. If you do, then we will A, B, 
and C. And, of course, we have an ability with a range of 
precision weapons to be able to respond quickly. I think of the 
Army ATACMS as a great weapon for putting together with the 
information umbrella. As you know, it's the only conventional 
ballistic missile, like the Scud, in the American inventory; 
except, for us, it works. And it goes very quickly, because 
it's ballistic. It gets there in a matter of one fifth or less 
the time that a cruise missile or an airplane would take. And 
so you can respond very precisely and very quickly to things 
that are happening that America doesn't want to see happen.
    And I think you could build a real coalition among our 
allies around such concepts, where it's doing good for the 
right reasons. So I believe it's technically possible. I think 
it's very, very much doable.
    Senator Lugar. Mr. Chairman, I'll not belabor this issue, 
but I would just say that both of us have shared, throughout 
the past few months, both anxiety and exasperation as we've 
tried to examine why the agencies of our government couldn't 
track the money or actions of terrorists. And again and again, 
you run through all the jurisdictional hassles, the computers 
that don't work, the people who don't cooperate.
    These are tough tasks institutionally. Our government 
really wasn't organized to handle these threats. But 
nevertheless, intelligent Americans have got to try to get over 
these barriers and put these things together, because an awful 
lot depends upon it. And I just appreciate your taking this 
time, first, to raise the issue and then, second, in a very 
concise way, from your expertise, to say that it's doable. And 
our problem is, I suppose, to spur on our leaders to do it and 
to keep raising those questions and trying to have that 
platform.
    Mr. Chairman, as just an exit question--and it's really 
more than that--but I'd just simply note that Admiral Owens 
mentioned again the problem of the tactical missiles. And the 
fact is that the Russians have never really wanted to engage in 
talking about tactical missiles. It's a subject that, as soon 
it comes up, it moves away.
    On the other hand, whether they want to or not, I'm just 
want to ask the witness, from his own experience, and maybe 
you've found some Russians to be more forthcoming. If not, how 
do we really get into this in a big way? Because otherwise, as 
you say, we've dealt with the large-missile warhead 
predicament, but the thousands of tactical weapons, many in 
Russia, at least as I understand their point of view, are a 
substitute for that. The maintenance of the old stuff and the 
big stuff is costly, even dangerous. As maintenance declines, 
then an accident might happen. Whereas, the tactical weapons 
are perceived as something else, that, as you downsize 
ambitions and downsize your program, you maybe downsize the 
size of the weapon. And that sort of fits the scope.
    Do you have any comment as to what the steps are to proceed 
to get more activity there?
    Admiral Owens. Yes, sir. Well, I think that, you know, that 
roles have shifted after the end of the cold war, with now the 
Russian military being conventionally inferior to what the NATO 
armies would be. It used to feel the other way around. And so 
we and our NATO allies thought it was very important to have 
tactical nuclear weapons to offset the conventional strength of 
the Russian military--the Soviet military.
    Today, it feels the other way to the Russians. And I 
suspect they're holding onto the tactical nuclear weapons as a 
hedge against our conventional strength. But as we move, as the 
administration seems to be, to a new kind of relationship with 
the Russians, both in the nuclear world, as well as the 
conventional world, and we start, I hope, to see the Russians 
more like England and France than like the old Soviet enemy, 
then we should have very much on the table this issue of 
tactical nuclear weapons, as you said, and really get to the 
core of getting rid of them if we can.
    A part of that is our own problem, I think, which is that 
many policymakers in our country believe that the NATO nuclear 
force is critical to holding NATO together and to having a 
genuine capability--against what, I'm not sure, unless it's the 
Russians. But then again, we're together with the Russians. And 
now we have the new agreement with the Russians to actually be 
much more present with us in NATO.
    So in that regard, it just seems to me that we should find 
a way that we, ourselves, come to grips with the fact that NATO 
does not need a nuclear force, a nuclear umbrella. An American 
umbrella of some kind that is used to protect Europe--against 
what, again, I would ask. And that should be step one in 
leading us to a decision that we should undertake serious, 
serious dialog with the Russians to go to zero on tactical 
nuclear weapons and dramatically affect the business of 
proliferation.
    And again, this brings us back, then, when you go to zero, 
and while we're getting more Nunn-Lugar money to help us truly 
destroy the weapons, what do we do with them? And I would find 
a place to store them under U.S.-Russian-international 
control--where there is transparency and security--while we're 
getting ready to destroy them.
    Senator Lugar. Thank you. Thank you, Mr. Chairman.
    The Chairman. Admiral, you're doing today what you did when 
you were at the Pentagon, and that is you're forcing people to 
think a little out of the box here.
    One of my great disappointments after 30 years in this 
committee is we all used to use the phrase you used earlier--I 
can't remember exactly what you said--but ``it's trite to 
say''--I think you were referring to ``this is a new world.'' 
It really is drastically different, but I don't think, 
including the Nuclear Posture Review, that we've really--
there's any really fundamentally new thinking. And the thinking 
that's taking place, it concerns me it's going in the opposite 
direction that we should be thinking about.
    Let me explain what I mean by that, and I'm going to ask 
you to comment on this. With regard to the notion of having 24-
hour eyes watching suspect sites in countries, you've 
testified, and others have privately briefed me, that that's 
fully within our capability. It costs a lot of money. It's 
fully within our capability to do that. And yet we're talking 
about dealing with those suspect sites as the rationale for 
spending a minimum of a hundred billion. And if it's a layered 
system, it could be a trillion, depending on what they mean by 
``layered,'' for a national missile defense. When, in fact, the 
ultimate national missile defense is taking it out before it's 
fired. I mean, it seems to me that's the ultimate national 
missile defense.
    Second, it doesn't require a nuclear weapon to take it 
out--``it,'' whatever ``it'' is--before ``it'' is fired. And 
yet we seem to be moving in a direction--and this crosses party 
lines--where the answer to the emerging threat is another 
incredibly cumbersome and expensive and highly technical system 
that has incredible limitations once you get beyond ballistic 
missiles. As you said, cruise missiles sitting off the shore 
is--I mean, any missile defense is absolutely useless to deal 
with that--I mean, national missile defenses.
    At the same time, the thing that concerns me about the--
even though there's not much that's fundamentally new in the 
NPR--is it seems to--in another--to steal a phrase from a 
totally different context, teaching constitutional law--it 
seems to ``squint toward'' nuclear testing and new nuclear 
weapons.
    So it seems what we're doing is--we have two gigantic 
advantages relative to the rest of the world. One is our 
conventional capability--gigantic advantage. I can't think of 
any time in American history where, relative to any other 
single nation or combination of nations, our conventional 
capability was as disparately disproportionate, in terms of 
capability. And, second, our technology capability to look and 
see what's going on.
    And we seem to be taking those two gigantic advantages and 
cashing them in, in a sense, or not cashing them in, for two 
areas that are our biggest disadvantage, although we have a 
great advantage, in relative terms. Why the hell would we want 
to have a conflict on the nuclear side of the equation and 
encourage nations to conclude they had to beef up that 
capability or acquire it, when, in fact, that could do us, 
notwithstanding our superiority on the nuclear side of the 
equation, great damage; whereas, if we, in effect, were to 
downplay or foreswear--``foreswear'' is too strong a word--move 
in the opposite direction of making it much more difficult for 
anyone to acquire, either by justifying their actions relative 
to ours or by us and the rest of the world allowing them to 
gain that capacity, we yield an advantage. I mean, I don't 
understand what--and I realize this is--I'm talking in broad 
trends, but am I missing something here?
    Am I missing something about the trend that seems to be 
continuing, which is--and it's not just this administration; 
the last administration never got off this wicket, either--of 
we've got to figure out better tactical nuclear weapons, earth-
penetrating nuclear weapons, weapons that have a different 
capacity, intercept capability in, you know, mid-course, 
possibly weaponizing space, et cetera, when, in fact, it seems 
the answer lies in our incredible existing advantages in the 
two areas where no one's realistically going to be able to 
compete with us in the near term. I'm not being facetious when 
I say--am I missing something here?
    Admiral Owens. Well, Senator, that's a big question, and--
--
    The Chairman. I'm probably--I'm missing a lot, I'm sure, 
but, I mean, in terms of these broad strokes, am I right about 
the direction we seem to be going, relative to the direction we 
should be going?
    Admiral Owens. You know, sir, our culture doesn't allow us 
to be very radical in the way we change. We seem to have been 
built around the force that was designed, in an organizational 
and cultural sense, by Napoleon, and we have a lot of 
difficulty getting away from that.
    When you start from that and say it's not a matter of the 
technology or the capability or what smart people would do, 
it's a matter of things like the Army-Navy game or West Point 
or Annapolis, wonderful institutions, and should we put naval 
people into West Point for a year, and West Pointers into 
Annapolis for a year. And the answer to that is always, 
``Absolutely not.'' I can't imagine why the answer is 
``absolutely not,'' but it's the same answer that causes your 
frustration with this issue, because it's culture. It is the 
Army-Navy game, and we all love the Army-Navy game and the 
culture of it and the battle between services.
    But it's also true that when I became a commander, at 20 
years in the service, I knew nothing about the Army, and I knew 
navies around the world much better personally and 
professionally than I knew the American Army. And so that kind 
of culture doesn't help us with the quandary that you have 
articulated.
    I think that we do have an ability to change radically, and 
we must, as you said, because the world has changed. I agree 
with you. I think that it doesn't cost a lot of money to put in 
place these new technologies of information umbrellas if we 
were able to simply take all of technologies we have today and 
put them together. It's not--this is not multi-billion-dollar 
kind of stuff, I think.
    The national missile defense issue, I am sympathetic with 
your position. We need to do a lot of testing and a lot of R&D. 
The deployment of these national systems, I think, is 
problematic. It takes a long time. It's questionable 
technology. But the regional technology, to strike in the boost 
phase or, as we talked before, with an information umbrella, to 
put a conventional weapon precisely on that spot, is not Flash 
Gordon stuff, and it needs to be very much part of our arsenal.
    So I'm very much in agreement with you on most of your 
points. I do think that Secretary Rumsfeld has been trying very 
hard to institute real transformation and change, but there is 
a great resistance inside the system. There are bureaucracies 
two or three levels down that preclude this kind of movement. 
And you've know them better than I. But whatever we need now, 
it's leadership from the top to really make for substantive 
change in these areas.
    The Chairman. Well, let me ask two specific questions. In 
my experience, and especially in the last 3 or 4 years, dealing 
with, meeting with, heads of state, Foreign Ministers, Defense 
Ministers, one of the things that I've concluded is--part of 
our dilemma internationally is I don't ever recall our allies 
questioning our motives as often as occurs now. And in my 
estimation, one of the ways to deal with that is to, in effect, 
use it in a different context, have more transparency, in that 
being able to make the case to our allies why we're taking the 
action that we're taking and why we're suggesting the action 
we're suggesting.
    And on the issue of being able to unify our intelligence 
capability in a way that would be able to give us real-time 
observation, I'm of the view that that would be greeted with an 
overwhelming positive response, particularly by our allies and 
many others, and it would have an ancillary impact, which is 
that it would fundamentally impact on their view of our 
motivation and hegemony and all the things that they second 
guess about our various actions or our assertions.
    Now, I am not so naive, as having done this this long, to 
think that this would be easy to do. But as I understand what 
you're suggesting, in terms of the intelligence capability that 
you're talking about unifying, is that this would be something 
that would be open and shared with other nations, as opposed to 
us having these ``eyes in the sky,'' if you will, intersected 
with all other INTEL that we have and then us, after the fact, 
sharing this information. It would be nice----
    At any rate, what is your assessment of the likelihood of 
other nations greeting positively this notion were we to embark 
on such an effort?
    Admiral Owens. Well, Senator, I think that most nations, as 
you said, are looking for transparency. They want to do the 
right things. They want to stand by our side. And often the 
issue is whether they know as much as we know.
    They do have some capabilities in these areas, both 
satellite and other sensors. They could be a part of this, or 
not, and we share the information. But I am grandly in favor of 
sharing much more information with our friends. We can be very 
selective about the kinds of things that we can share without 
giving up critical national capabilities. But we're out there 
around the world today with the British and the Australians and 
the Canadians, and they are as though we are one force. And the 
more we can be open with them, in my view, the better off we're 
going to be.
    It's not unusual, in some instances, to find your wing man 
being from one of those very close allied countries. And if 
your son is flying in that airplane, you want to make sure that 
the wing man has every bit of technology that he can have to 
work with us. And so I think that transparency of information 
is very important, and it adds a lot to our credibility in this 
world.
    I might also add that, you know, the world of commercial 
telecoms and IT makes this all easier to share. We've all 
worried about how we're getting in front of our allies, how 
they are falling behind. But, indeed, much of this is moving 
toward a Web-based TCP, IP, high-bandwidth, commercial 
technology, T1 kind of--all these new terms--world in which we 
can tie ourselves together with new kinds of integrating 
software that weren't there 5 years ago, some of the Java, the 
VB, the C++ kinds of software that allow us to tie legacy 
systems together, and that means tie our systems together with 
our allies in ways we never thought possible. So there are ways 
we can do some very interesting things using the commercial 
technologies that are at the heart of this Nation's great 
strength right now responsible for much of the productivity of 
our Nation and could be responsible for the productivity of our 
foreign policy and for our military capability, as well.
    The Chairman. Well, Admiral, I have so many more questions, 
as I'm sure Senator Lugar does. I'd like to ask your permission 
if we could submit several to you in writing and ask whether 
you'd be willing to come, either in a public or in a private 
setting, to discuss some of these ideas with us further.
    Admiral Owens. It's a pleasure, Senator. Thank you very 
much for having me here today.
    The Chairman. I particularly am going to submit some 
questions relative to what I refer to as the ``China factor,'' 
in terms of our U.S. strategic posture, if I may, but that 
would take us onto another half hour, I'm afraid. So, Admiral, 
thank you very, very much. Again, it's been illuminating and 
encouraging.
    Admiral Owens. Thank you, sir.
    The Chairman. Our next panel will begin with a most 
distinguished scientist, Professor Steven Weinberg, of the 
University of Texas. In 1979, Professor Weinberg won the Nobel 
Prize in Physics. Throughout his career, Professor Weinberg has 
combined cutting-edge work with an ability to explain modern 
science to the rest of us. His books, ``The First Three 
Minutes'' and ``Dreams of a Final Theory,'' have been 
bestsellers, at least by standards applied to works on physics 
and big galaxies and tiny particles. Professor Weinberg has 
also dealt before with the military and political policy 
implications of modern physics. And he's a former member of 
JASON, and he was a one-time consultant with the Arms Control 
and Disarmament Agency.
    Our second witness in the second panel will be Dr. Loren 
Thompson, chief operating officer of the Lexington Institute. 
Dr. Thompson wrote an interesting piece recently in the Wall 
Street Journal in which he argued essentially--I hope I'm 
characterizing it correctly--that critics in the Nuclear 
Posture Review should basically calm down, because all the 
proposals in it were really aimed at buttressing nuclear 
deterrence. And I'm looking forward to being reassured.
    And our final witness has come back again and again for us, 
Joe Cirincione, director of the Nonproliferation Project at the 
Carnegie Endowment for International Peace. He's a man of many 
talents who's been a frequent witness before this committee, 
and he was once a staff member of the House Armed Services 
Committee. He really specializes in the nexus between military 
and foreign policy, and we will count on him to draw together 
many of the points of view that will be expressed this morning.
    And so can we begin in the order that you've been called? 
And, Dr. Weinberg, it's an honor and privilege to have you 
here.

STATEMENT OF STEVEN WEINBERG, PH.D., WINNER OF THE NOBEL PRIZE 
 IN PHYSICS (1979), PROFESSOR OF PHYSICS, UNIVERSITY OF TEXAS, 
                           AUSTIN, TX

    Dr. Weinberg. Thank you, Chairman Biden and Senator Lugar. 
Thank you for giving me the opportunity to comment on some of 
the issues raised by the Nuclear Posture Review.
    In the review, the Bush administration announces plans to 
reduce the number of operationally deployed nuclear weapons 
from the roughly 6,000 figure we have today to between 1,700 
and 2,200 in about 10 years from now. But this number, even 
after this reduction, would be still vastly more than could be 
used in retaliation for any other country's use of weapons of 
mass destruction. And, furthermore, the administration plans to 
retain about 7,000 intact weapons in various reserves, overhaul 
and so on. And this is about half the rate of reduction of our 
nuclear weapons arsenal that would have been called for by the 
START II and START III agreements. I would say that this isn't 
liquidating the legacy of the cold war, but desperately hanging 
onto it.
    There was a rationale for maintaining a very large nuclear 
arsenal during the cold war. We had to be sure that the Soviets 
would be deterred from any sort of surprise attack on the 
United States by the certainty that enough of our arsenal would 
survive to allow us to deliver a devastating response. And that 
rationale is now obsolete.
    There is, however, another possible use of a large nuclear 
arsenal, which is not entirely obsolete, and that is to launch 
a preemptive attack against Russian strategic weapons. I say 
Russia here, because the large size of our arsenal would be 
irrelevant for a preemptive attack against any other power. 
But, on the other hand, even if we were unable to neutralize 
the Soviet deterrent during the cold war, now, as the Russian 
nuclear forces become increasingly immobile, with their 
missile-launching submarines tied up at docks and their mobile 
land-based missiles in fixed garrisons, our nuclear arsenal is 
large enough to put Russian nuclear forces at risk to a 
preemptive U.S. first strike. Now, I'm not saying we would do 
that, but one has to think about the implications of this.
    It might be thought that the ability to launch a preemptive 
strike against Russia's strategic nuclear force is a pretty 
good one to have. But, in fact, it poses enormous dangers, and 
to us as well as to Russia. The Russians can count missiles as 
well as we, and as ``prudent'' defense planners, they're likely 
to rate our chances of a successful preemptive attack more 
highly than we would. I'm not worried about them getting angry 
with us or breaking off relations with us. I'm worried about 
what they may do. The cheap and easy thing for them to do is to 
keep their forces on a hair-trigger alert, posing the danger to 
the United States of a massive Russian attack by mistake. This 
danger will be further increased if the United States proceeds 
with a national missile defense that might be perceived, and I 
think would be perceived, by the Russians to have some 
capability against a ragged Russian second strike, or, if we 
follow the recommendation of the Nuclear Posture Review that 
the United States should develop real-time intelligence 
capabilities of a sort that would allow us to target even 
mobile Russian missiles on the road.
    Even though this threat of a large Russian mistaken attack 
caused by their high state of alert is not an acute one, it's 
chronic. It's with us all the time, and it's also the only 
threat we face that could destroy our country beyond our 
ability to recover. I don't agree that terrorism is now the 
greatest threat we face. The threat of a Russian mistaken 
attack is a threat we face year in and year out. It's the only 
one that can destroy us, and it's the one that gives me cold 
sweats when I wake up in the middle of the night.
    This brings me to the one real value our large nuclear 
arsenal has. We can trade away most of our arsenal for 
corresponding cuts in Russian forces, and this is what we 
should be doing. And I don't mean cuts to about 2,000 deployed 
weapons with 7,000 in various reserves, but as a first step to 
not more than 1,000 nuclear weapons of all sorts, including 
those in various reserves, as was called for by a 1997 report 
of the National Academy of Sciences. In this way, the danger of 
a mistaken Russian launch wouldn't be eliminated, but the 
stakes might be millions or tens of millions of lives rather 
than hundreds of millions of lives.
    It would also greatly reduce the danger of diversion of 
Russian nuclear weapons or weapons material to criminals or 
terrorists. We shouldn't be seeking the maximum future 
flexibility for both sides in strategic agreements we make with 
the Russians. We should be seeking the greatest possible 
irreversibility and transparency on both sides based on binding 
ratified treaties. I'm awfully glad that Senator Biden was able 
to bring his influence to bear to get the reduction, such as it 
is, in the form of a treaty.
    For this reason, I've joined some other scientists in a 
statement calling for an accelerated reduction of our nuclear 
arsenal and other steps to improve our security. And, with the 
committee's permission, I'd like to include that statement in 
the published text of my testimony, but not read it here.
    The Chairman. It will be included in the record.
    Dr. Weinberg. Thank you.
    It's not only that we're not moving fast enough in the 
right direction, not remotely fast enough, but, in some 
respects, the Bush administration seems to be moving in just 
the wrong direction. One example is the abrogation of the 1972 
treaty limiting anti-ballistic missile systems. Another 
example, which I want to talk about here briefly, is the 
resurrection of the idea of developing nuclear weapons for use 
rather than for just deterrence. For instance, the Nuclear 
Posture Review calls for the development of low-yield earth-
penetrating nuclear weapons for attacks on underground 
facilities.
    Now, this doesn't make much sense, technically. You can't 
drive a missile down below a certain depth before it crumples 
and will not perform its task. The depth of penetration--I 
think a reasonable maximum, according to calculations I've gone 
over, is about 80 feet in rock or concrete. That's just 
considering the crumpling of the missile. The actual maximum 
depth is likely to be considerably less than that because of 
the vulnerability of electronics in the missile to the great 
deceleration that you would be having.
    Now, that is enough of a depth to convert the missile's 
energy into a destructive underground blast wave. But even so, 
it would only destroy tunnels that are at depths considerably 
less than 300 feet, so it would have no effect against really 
deep targets. And the precise depth to which it would be 
effective wouldn't known anyway, because it would depend on 
geological details that we couldn't know.
    To have confidence that the underground target had been 
destroyed, if we developed such a weapon and used it, we'd 
still have to have troops on the ground. As Loren Thompson said 
in an article in the Wall Street Journal, ``We would need 
American boots on the ground moving site to site, eliminating 
all weapons and facilities.'' So with American troops on the 
ground, it's not clear that, even with such a weapon, that we 
would find a need for using it.
    There's a great reason for not using it, and that is the 
radiation effects it would produce. Experience in the series of 
underground nuclear explosions in Project Ploughshare showed 
that in order to keep the cavity containing a lot of 
radioactive debris below the surface, a one-kiloton explosion 
would have to be kept below about 300 feet. The depth for 
smaller yields decreases very slowly with the yield. There's no 
way we're going to drive an earth-penetrating weapon down to 
below 300 feet. It's just not possible unless someone takes it 
down in an elevator.
    In order to avoid the fallout from a nuclear explosion at 
the greatest depth I think we can reach, about 80 feet, you'd 
have to reduce the yield to the equivalent of 19 tons of TNT. 
It's not much more than you could achieve anyway with 
conventional explosives.
    In any case, the experience on which the figure I 
mentioned, of 300 feet, is based, the experience in the 
Ploughshare test, had to do with explosions in underground 
cavities that were excavated, but without a shaft going to the 
surface. But our earth-penetrating weapon would create such a 
shaft from the surface down to where the explosion occurs, a 
very nice way of producing a tremendous plume of radioactive 
material, which we would not be happy about.
    And it's not just a question of not wanting to cause 
collateral damage to innocent civilians. Those civilians may be 
people we're trying to get over on our side, as we have been in 
Afghanistan. They may be our own troops going from site to site 
checking whether or not we've actually destroyed these 
underground facilities. This is not the cold war, as we keep 
being told. We have to worry about the damage we do to people 
on the ground near where the attack is occurring.
    The fallout produced by a one-kiloton explosion at a depth 
of 80 feet would kill everyone within a radius of about half a 
mile, and that's if the wind isn't blowing. If the wind is 
blowing, God knows where the fallout goes. It might land on one 
of our allies.
    There are other signs of an increased interest in 
developing nuclear weapons for actual use. There's a statement 
by William Schneider--this, as far as I know, was not in the 
Nuclear Posture Review, but it's another straw in the wind--the 
chairman of the Defense Science Board, that announced a renewed 
study of nuclear armed missile defense interceptors. In a 
sense, I find this perversely welcome, because it verifies what 
critics of missile defense systems have been saying all along, 
that the decoy problem will prevent you from being able to 
launch a successful exo-atmospheric interception. I think there 
are severe problems with nuclear interceptors also, but I won't 
go into them, as this wasn't part of the Nuclear Posture 
Review.
    Now, for the dubious advantages of such nuclear weapons, we 
would be paying a very high price. One item on the bill, as has 
been mentioned by a number of people--I think, Senator Biden, 
you mentioned it--was the pressure for resumed testing of 
nuclear weapons. Just think, for example, of relying on 
underground, deep-penetrating nuclear weapons and not knowing 
whether that shaft that the weapon itself digs from the surface 
down to where it explodes is going to provide a highway for the 
fallout to come out. I don't see how we can know that without 
carrying out testing--testing, in fact, which has a good chance 
of producing fallout in the atmosphere. How can we know that a 
missile defense system, based on nuclear interceptors, would 
work in a realistic engagement without testing it in a 
realistic way?
    The resumption of nuclear testing would be a dangerous 
break with the past. We haven't carried out even underground 
tests since the previous Bush administration, and neither has 
Russia or China, which is very much in our interest. It would 
violate our commitment under the Nonproliferation Treaty to de-
emphasize the role of nuclear weapons, and it would have 
terrible effects on proliferation throughout the world.
    And, furthermore, of course, the programs to develop 
nuclear weapons for use would stand in the way of what I think 
is so essential to let us all get through the night without 
terrible fears about a mistaken Russian attack. It would stand 
in the way of a massive mutual reduction of nuclear arms. In 
fact, I'm not sure whether a massive reduction of nuclear 
weapons is being passed over in order for us to be able to 
continue these weapons programs, or whether it's the other way 
around, the weapons programs are being proposed in order to 
slow down cuts in our nuclear arsenal. It's probably something 
of both.
    I remember the days of the debate about the first test ban 
treaty, when one of the arguments against ratifying the test 
ban treaty is that it would force us to stop work on wonderful 
opportunities, like Project Orion, which was to build a 
spaceship that would be propelled by continual nuclear 
explosions, or Project Ploughshare, digging canals with nuclear 
weapons.
    This is a great moment of opportunity. Now, for the first 
time, we have a President of Russia who is anxious to have good 
relations with the United States, anxious to reduce forces, 
anxious to decommission nuclear weapons, and, furthermore, who, 
unlike President Yeltsin, has the power to bring this about in 
his own country. And it seems to me we're letting this 
opportunity slip away.
    But, of course, the proposals for new nuclear weapons are 
much more dangerous than Ploughshare or Orion were. We are, as 
Senator Biden said, the world's leader in conventional 
weaponry, and it's terribly in our interest to preserve a 
somewhat mystical taboo against the use of nuclear weapons, a 
taboo that has grown steadily stronger since 1945.
    I'm not worried whether our developing nuclear weapons is 
going to make other countries not like us, but I'm worried 
about its effect on what they do. I know that previous nuclear 
programs, like that of India, might have been stopped if it 
were possible to have a comprehensive test ban with Russia 
early enough.
    Is it unlikely that the same kind of decisionmaking will 
apply in Egypt or Iran or Japan? Is it likely that the 
nonproliferation treaty will survive at all when the United 
States is developing and testing nuclear weapons for actual 
use?
    Now, it's very often argued that the future is uncertain, 
and that we can't tell what enemies we might face in coming 
years, and, therefore, we should retain a maximum capability to 
use our nuclear arsenal in whatever way may prove necessary. 
Well, it is true the future is uncertain. But we may increase 
rather than decrease uncertainty by maximizing our nuclear 
capabilities. We can't tell what enemies we may face, it's 
often said. Well, that's true. We also can't tell what crisis 
may occur in Russian-U.S. relations that may put us at risk 
from a mistaken launch on their part. We can't tell what 
terrorists may appropriate part of the Russian arsenal. We 
can't tell what dangers we may face from a large Chinese 
arsenal built to preserve their deterrence from the threat of 
an American first strike backed up by a missile defense system. 
We can't tell what countries may be tipped toward a decision to 
develop nuclear weapons by new U.S. weapons programs or resume 
nuclear testing. There's no certainty, whatever we do.
    We have to decide what are the most important dangers. And 
these dangers may be increased rather than decreased by other 
countries' responses to our nuclear weapons programs. As far as 
I know, the Nuclear Posture Review does not even engage the 
question of what the programs it calls for will have on the 
actions of other countries. We don't have the last move.
    And, now, Senator Biden, you asked why would we hang on to 
this enormous nuclear arsenal and develop this incredible 
national missile defense system of dubious effectiveness? As a 
partial answer, I'd like to tell a little story. It may be 
already to familiar to you and others in the room.
    At the beginning of the 20th century, Britain was in very 
much the same position we are now, but with regard to naval 
strength. Just as we are today overwhelmingly the most powerful 
country as far as conventional weapons are concerned, they were 
then overwhelmingly the world's greatest naval power. Then in 
1905, Admiral Sir John Fisher, the First Sea Lord, pushed 
forward the construction of a new type of battleship which 
would have all big guns--12-inch guns, the largest that could 
be made at the time. It would be very fast, greatly superior to 
any battleship that existed. The prototype was named after one 
of Nelson's ships, the ``Dreadnought.''
    Dreadnoughts really were superior to all previous 
battleships. And suddenly what counted in naval arms races were 
not the size of a country's fleet, in which Britain was already 
supreme, but the number of its dreadnoughts. Other countries 
could now compete with Britain by building dreadnoughts. A 
naval arms race began between Britain and Germany, in which 
Britain stayed ahead only with great expense and difficulty.
    There were complaints about this at the time. Admiral of 
the Fleet, Sir Frederick Richards, complained in Parliament 
that, ``The whole British fleet was morally scrapped and 
labeled obsolete at the very moment when it was at the zenith 
of its efficiency and equal not to two, but practically all the 
other navies in the world combined.''
    This sounds very familiar, very strangely similar to what 
we have now. So national security is not always best served, 
and certainty is not always built, by building the best weapons 
we can imagine.
    As a scientist, I can recognize some of the motivation for 
this, though probably not the whole motivation. There's a kind 
of technological restlessness at work, which we see from the 
building of the Dreadnought to this year's Nuclear Posture 
Review. Going back to Fisher, years before the Dreadnought was 
built, when he was a newly appointed captain in charge of the 
Royal Navy's Torpedo School, Fisher explained that, ``If you 
are a gunnery man, you must believe and teach that the world is 
safe by gunnery and will only be saved by gunnery. If you are a 
torpedo man, you must lecture and teach the same thing about 
torpedoes.'' Well, this is not a corrupt or an unpatriotic 
attitude, but we don't have to be guided by it.
    Thank you.
    [The prepared statement of Dr. Weinberg with an attachment 
follows:]

Prepared Statement of Dr. Steven Weinberg, Winner of the Nobel Prize in 
  Physics (1979), Professor of Physics, University of Texas, Austin TX

    Chairman Biden, Senator Helms, and members of the Committee, I am 
grateful to you for giving me the opportunity to express my views on 
issues raised by the recent Nuclear Posture Review. My research has 
mostly been on elementary particle physics and cosmology, which does 
not give me any special credentials for commenting on strategic issues, 
but I worked actively on military technology in the 1960s and 1970s as 
a member of the JASON group of defense consultants, and less 
intensively in recent years as a senior advisor to this group. I have 
also served as a consultant to the U.S. Arms Control and Disarmament 
Agency, and have written about defense matters from time to time. 
Because this hearing is open to the public I have not asked to see the 
full classified version of the posture review, but I have read the 
unclassified briefing on the posture review by Assistant Secretary 
Crouch and the transmittal letter by Secretary Rumsfeld, as well as 
excerpts from the posture review that have appeared in the press. On 
this basis I think I can comment on the general issues surrounding the 
posture review, if not on the details of the review itself.
    The U.S. is now in possession of an enormous nuclear arsenal, left 
over from the days of the cold war. We have about 6,000 operationally 
deployed strategic warheads today, far more than could possibly be 
needed for deterrence against any conceivable enemy. The Bush 
administration plans to reduce this number, but very slowly, to about 
3,800 in 2007 and ultimately to about 1,700 to 2,200 in 2012, but this 
would still be far more than could be used in retaliation for any other 
country's use of weapons of mass destruction. Furthermore, the 
administration's plans call for the retention of about 7,000 intact 
warheads in overhaul, tactical nuclear warheads, and the ``inactive 
reserve'' stockpile and other reserves, not to mention a large number 
of plutonium pits and other weapon components. Taking into account the 
different counting rules, the rate of reduction of our nuclear arsenal 
proposed by the Bush administration is about half the rate that would 
have been called for by the START II and START III agreements. This is 
not liquidating the legacy of the cold war, but hanging on to it.
    There was a rationale for maintaining a very large nuclear arsenal 
during the cold war: We had to be sure that the Soviets would be 
deterred from a surprise attack on the U.S. by their certainty that 
enough of our arsenal would survive any such attack to allow us to 
deliver a devastating response. I don't say that U.S. strategic 
requirements were actually calculated in this way, but the need for a 
survivable deterrent at least provided a rational argument for a large 
arsenal.
    This rationale for a large nuclear arsenal is now obsolete. No 
country in the world could threaten our submarine-based deterrent, and 
even with an implausibly rapid missile development, for decades to come 
no country except Russia will be able to threaten more than a tiny 
fraction of our land-based deterrent.
    There is, however, another possible use of a large nuclear arsenal: 
to launch a preemptive attack against Russian strategic weapons. I say 
``Russian,'' because the large size of our arsenal would be irrelevant 
for a preemptive attack against any other power. If we ever found that 
a hostile ``rogue'' state were about to deploy a few dozen nuclear-
armed ICBMs, and if we could locate them, then they could be destroyed 
by only a tiny fraction of our nuclear arsenal, and in fact even by 
conventionally armed cruise missiles. On the other hand, even if we 
were unable to neutralize the Soviet deterrent during the cold war, now 
as Russian nuclear forces become increasingly immobile, with their 
missile launching submarines tied up at dockside and their land-based 
mobile ICBMs kept in fixed garrisons, our large nuclear arsenal may put 
Russian nuclear forces at risk to a preemptive U.S. strike.
    It might seem that the ability to launch a preemptive strike 
against Russian strategic nuclear forces is a pretty good one to have, 
but in fact it poses enormous dangers, and to us as well as to Russia. 
The Russians can count missiles as well as we, and as ``prudent'' 
defense planners they are likely to rate our chances of a successful 
preemptive attack more highly than we would. The cheap and easy defense 
from this perceived danger will be for the Russians to keep their 
forces on a hair-trigger alert, posing the danger to the U.S. of a 
massive Russian attack by mistake. (According to Russian sources, it 
now takes 15 seconds for the Russians to target their ICBMs, and then 
2-3 minutes to carry out the launch.) This danger is exacerbated by the 
gradual decay of Russian surveillance and control capabilities, which 
has already led them on one occasion to mistake a Norwegian research 
rocket for an offensive missile launched from an American submarine in 
the Norwegian sea. The danger will be further increased if the U.S. 
proceeds with a national missile defense, that might be perceived by 
the Russians to have some capability against a ragged Russian second 
strike, or if we follow the recommendation of the Nuclear Posture 
Review, that the U.S. should develop real-time intelligence 
capabilities of a sort that would allow us to target even mobile 
Russian missiles on the road.
    Even though the threat of a large Russian mistaken attack is not 
acute, it is chronic. It is also the only threat we face that could 
destroy our country beyond our ability to recover. Compared with this 
threat, all other concerns about terrorism or rogue countries shrink 
into insignificance.
    This brings me to the one real value of our large nuclear arsenal: 
we can trade away most of our arsenal for corresponding cuts in Russian 
forces. I don't mean cuts to about 2,000 deployed weapons, but as a 
first step to not more than a thousand nuclear weapons of all sorts, 
including those in various reserves, as called for by a 1997 report of 
the National Academy of Sciences. [A detailed proposal for the size of 
an adequate deterrent that I find reasonable has been given in ``Toward 
True Security: A Nuclear Posture for the Next Decade,'' a joint report 
of the Federation of American Scientists, the National Resources 
Defense Council, and the Union of Concerned Scientists.] In that way, 
although the danger of a mistaken Russian launch would not be 
eliminated, the stakes would be millions or tens of millions of 
casualties, not hundreds of millions. It would also reduce the danger 
of diversion of Russian nuclear weapons or weapons material to 
criminals or terrorists. Instead of seeking the maximum future 
flexibility for both sides in strategic agreements with the Russians, 
we should be seeking the greatest possible irreversibility and 
transparency on both sides, based on binding ratified treaties. For 
this reason I have joined the distinguished scientists Hans Bethe, 
Richard Garwin, Marvin Goldberger, Kurt Gottfried, and Walter Kohn in a 
statement calling for an accelerating reduction of our nuclear arsenal 
and other steps to improve our security. With the Committee's 
permission, I would like to include that statement in the published 
text of my testimony.
    Not only are we not moving fast enough in the right direction--in 
some respects the Bush administration seems to be moving in just the 
wrong directions. One example is the abrogation of the 1972 treaty 
limiting anti-ballistic missile systems. [For my comments on missile 
defense, see ``The Truth About Missile Defense,'' in The New York 
Review of Books XLIX, No. 2, 41-47 (February 14, 2002).] Another 
example is the resurrection of the idea of developing nuclear weapons 
for use, rather than for just deterrence.
    For instance, the Nuclear Posture Review calls for the development 
of low yield earth penetrating nuclear weapons for attacks on 
underground facilities. There are great technical difficulties here, 
which might prevent our using such a weapon even if we had it. 
Calculations by Robert W. Nelson of Princeton University show that an 
earth-penetrating weapon cannot be driven down to a depth greater than 
about four times its length in concrete. Increasing the velocity of 
impact beyond a certain point just causes the weapon to crumple, so 
that the depth of penetration decreases rather than increases. This 
sets an upper limit on the depth of penetration of about 80 feet for a 
weapon that is twice the length of our present B61-11 earth-penetrating 
nuclear weapon. The actual depth that may be reached in practice may be 
considerably less, because the velocity of penetration must be kept low 
enough to preserve the weapon's electronics. Now, an 80 foot depth is 
sufficient to put most of the energy of the explosion into a 
destructive underground blast wave, but even so a 1 kiloton explosion 
would only destroy tunnels that are at depths considerably less than 
300 feet, with the precise range sensitive to geological details that 
we are not likely to know. To have confidence that the underground 
target had been destroyed we would have to have troops on the ground 
anyway, so that a missile attack might not even be necessary.
    Particularly worrisome are radiation effects. Experience in the 
series of underground nuclear explosions in Project Plowshare showed 
that to keep the cavity produced by the explosion below the surface, a 
one-kiloton explosion would have to be kept below 300 feet, with the 
depth for smaller yields decreasing only as the one-third power of the 
yield. To avoid fallout from a nuclear explosion at a depth of only 80 
feet it would be necessary to reduce the yield to 19 tons, not much 
more than could be delivered using conventional explosives. I don't 
believe that there is any way for a nuclear weapon to penetrate to 
hundreds of feet without someone carrying it down in an elevator, so 
that using nuclear weapons to attack underground targets is bound to 
produce radioactive fallout. In any case, the penetration of a weapon 
through the earth would create a shaft to the surface, something that 
did not exist in the Plowshare tests, so the depth required to avoid 
fallout is bound to be even larger than indicated by these tests.
    The fallout produced by a one-kiloton explosion at a depth of 80 
feet would kill everyone within a radius of about half a mile. This is 
for still air; wind can carry the fallout for tens of miles. We could 
be killing not only the local population, which (as in Afghanistan) we 
might be trying to enlist on our side, but also whatever forces we or 
our allies have on the ground.
    There was another sign of increased interest in developing nuclear 
weapons for actual use in a recent statement by William Schneider, the 
chairman of the Defense Science Board, announcing a renewed study of 
nuclear-armed missile defense interceptors. In one sense I almost find 
this welcome, because it confirms what critics of missile defense 
(including myself) have been saying, that the non-nuclear ``hit-to-
kill'' mid-course interceptors of the planned National Missile Defense 
system could be defeated by decoys or other penetration aids. Of 
course, nuclear-armed missile defense interceptors would have technical 
and political problems of their own, problems that have led to the 
abandonment of nuclear-armed interceptors as components in missile 
defense since the administration of Ronald Reagan.
    For the dubious advantages of such nuclear weapons, we would pay a 
high price. One item on the bill is the pressure for resumed testing of 
nuclear weapons. As I mentioned, calculations indicate that any nuclear 
weapon that would be effective against underground targets would 
release large quantities of radioactivity. Even if the depth of 
penetration of a nuclear weapon were somehow increased and the yield 
decreased enough so that no fallout was expected, how without testing 
these weapons in action would you ever have confidence that fallout 
would not escape, especially after our weapon has created its own shaft 
to the surface? And how would anyone have confidence in a missile 
defense system based on nuclear-armed interceptors without tests that 
involve nuclear explosions in or above the atmosphere?
    The resumption of nuclear testing would be a dangerous break with 
the past. We have not carried out even underground tests since the 
previous Bush administration. Neither has Russia or China, which is 
very much in our interest.
    The development of new nuclear weapons for war-fighting would in 
itself violate our commitment under the Nonproliferation Treaty (NPT) 
to de-emphasize the role of nuclear weapons and to work toward their 
total elimination. The resumption of nuclear testing for this purpose 
would make this violation concrete and dramatic, and would thereby do 
terrible damage to the effectiveness of the NPT in discouraging nuclear 
weapons programs throughout the world.
    The worst thing about programs to develop nuclear weapons for use 
is that they stand in the way of a massive mutual reduction of nuclear 
arms. In fact, I'm not sure whether massive reductions in nuclear 
weapons are being opposed in order for us to be able to continue such 
weapons programs, or whether the weapons programs are being proposed in 
order slow down cuts in our nuclear arsenal. Probably something of 
both. Back in the days when the first test ban treaty was being 
debated, one of the arguments against it was that it would stand in the 
way of Project Plowshare, the use of nuclear weapons to do things like 
digging canals, and Project Orion, the development of a spacecraft 
propelled by nuclear explosions. The development of nuclear weapons for 
attacking underground facilities or for missile defense may be today's 
Orion and Plowshare.
    But the current proposals for new nuclear weapons are much more 
dangerous than the Plowshare or Orion programs. As the world's leader 
in conventional weaponry, it is very much in our interest to preserve 
the taboo against the use of nuclear weapons, a taboo that has grown 
steadily stronger since 1945. Developing and testing new nuclear 
weapons for actual use teaches the world a lesson that nuclear weapons 
are a good thing to have. This is not entirely a rational matter. I 
remember that once in the late 1960s I had lunch at MIT with the chief 
scientific adviser to the government of India. I asked about India's 
plans for developing and testing nuclear weapons, and he said that it 
all depended on whether the U.S. and USSR could reach an agreement 
banning all future nuclear testing. I said that that seemed irrational, 
because it was not the U.S. or the USSR that presented a military 
threat to India, and even if such a threat did develop, American and 
Soviet nuclear forces would in any case be so much greater than India's 
that it would not matter to India if the U.S. or the USSR had stopped 
testing or gone on testing. He answered that politics is not always 
based on rational calculations, that there would be great political 
dissension in Indian governing circles over whether to develop nuclear 
weapons, and that the spectacle of continued testing of nuclear weapons 
by the U.S. or the USSR would strengthen the hands of those in India 
who favored developing nuclear weapons. Is it unlikely that the same 
will apply to decisions about nuclear weapons in countries like Egypt, 
or Iran, or Japan? Is it likely that the Non-Proliferation Treaty will 
survive when the U.S. is developing and testing nuclear weapons for 
actual use?
    It is sometimes argued that the future is uncertain, that we cannot 
tell what enemies we may face in coming years, and that therefore we 
should retain a maximum capability to use our nuclear arsenal in 
whatever way may prove necessary. [For an example, see ``Rationale and 
Requirements for U.S. Nuclear Forces and Arms Control,'' Keith B. 
Payne, study director, National Institute for Public Policy, 2001.] It 
is true that the future is uncertain, but we may increase rather than 
decrease uncertainty by maximizing our nuclear capabilities. We cannot 
tell what crisis may occur in U.S.-Russian relations, which may put us 
at risk from a mistaken launch on their part. We cannot tell what 
terrorists may appropriate part of the Russian arsenal. We cannot tell 
what dangers we may face from a large Chinese arsenal, built to 
preserve their deterrent from the threat of an American first strike 
backed up by a missile defense system. We cannot tell what countries 
may be tipped toward a decision to develop nuclear weapons by new U.S. 
weapons programs or resumed nuclear testing. There is no certainty 
whatever we do--we have to decide what are the most important dangers--
and these dangers may be increased rather than decreased by other 
countries' responses to our own weapons programs.
    To illustrate this and close my testimony, I'd like to tell a 
little story, which may already be familiar to many of you. At the 
beginning of the twentieth century Britain was overwhelmingly the 
world's greatest naval power, much as the U.S. is today the world's 
leader in conventional arms. Then in 1905 Admiral Sir John Fisher, the 
First Sea Lord, pushed forward the construction of a new design for a 
fast battleship armed solely with 12-inch guns, the biggest guns then 
available. The prototype was named after one of Nelson's ships, the 
Dreadnought. Dreadnoughts really were superior to all previous 
battleships, and suddenly what counted was not the size of a country's 
fleet, in which Britain was supreme, but the number of its 
Dreadnoughts. Other countries could now compete with Britain by 
building Dreadnoughts, and a naval arms race began between Britain and 
Germany, in which Britain would stay ahead only with great expense and 
difficulty. Admiral of the Fleet Sir Frederick Richards complained in 
Parliament that ``The whole British fleet was morally scrapped and 
labeled obsolete at the moment when it was at the zenith of its 
efficiency and equal not to two but practically to all the other navies 
of the world combined.'' Like Dreadnoughts, nuclear weapons can act as 
an equalizer between strong nations like the U.S. with great economic 
and conventional military power, and weaker countries or even terrorist 
organizations. Evidently national security is not always best served by 
building the best weapons.
    As a scientist, I can recognize a kind of technological 
restlessness at work, from the building of the Dreadnought to this 
year's Nuclear Posture Review. Years before the Dreadnought, as a newly 
appointed captain in charge of the Royal Navy's torpedo school, Fisher 
explained that ``If you are a gunnery man, you must believe and teach 
that the world is saved by gunnery, and will only be saved by gunnery. 
If you are a torpedo man, you must lecture and teach the same thing 
about torpedoes.'' There is nothing corrupt or unpatriotic about such 
attitudes, but we don't have to be guided by them.
                                 ______
                                 

        Scientists Statement on the Moscow Summit--May 13, 2002

    President Bush, at the forthcoming Moscow Summit, has the 
opportunity to reduce two supreme dangers to our security and lives:

  <bullet> the threat that nuclear weapons or weapons usable material 
        in Russia could be stolen and sold to terrorists or hostile 
        states and used as nuclear explosives to destroy American 
        troops abroad or hundreds of thousands of our citizens at home;
  <bullet> the threat of a massive attack by Russian nuclear-armed 
        missiles due to false warning of a U.S. nuclear strike, which 
        would put at risk the very survival of our nation.

    We applaud the cuts in deployed nuclear warheads that are to be 
agreed to by Presidents Bush and Putin at the Moscow Summit. But the 
pace with which the administration proposes to carry out the cuts 
should be accelerated. Furthermore, it remains unclear whether these 
cuts will be structured and implemented in a manner that would minimize 
the threats above.
    The serious proliferation threat posed by the Russian nuclear 
weapons complex will only be reduced if the warheads removed from 
Russian launchers are placed in secure storage, dismantled and the 
nuclear materials rendered unusable. President Bush, however, appears 
to be seeking an agreement that would not compel Russia to make its 
undeployed warheads invulnerable to proliferation. The administration 
apparently wants to retain its undeployed warheads in a ``responsive 
reserve force'' that could be used to reload bombers and missiles on 
relatively short notice. An agreement allowing this would, of course, 
give Russia the freedom to also do as it pleases with its weapons.
    The administration argues that the responsive force is needed to 
address unspecified contingencies in the indefinite future. The 
deployed force of roughly 2,000 U.S. strategic warheads that would 
remain after the proposed cuts are completed will, however, more than 
suffice to meet any threat that can be envisaged. It would be folly to 
hedge against contingencies that cannot even be foreseen, by taking a 
step now that would exacerbate an urgent and present danger.
    To eliminate the threat of a catastrophic Russian launch resulting 
from its deteriorating warning system, President Bush should advocate 
that both states adopt postures and procedures such that their nuclear 
weapons could only be fired after a delay of some days, so that Russia 
would not maintain its forces in a launch-on-warning posture. Such a 
posture would not compromise the U.S. capability for retaliation as the 
bulk of our strategic forces would, without question, survive any 
attack.
    The administration's position concerning strategic nuclear forces 
shows little regard for the obligations of the United States under the 
Nuclear Non-Proliferation Treaty--obligations undertaken because of 
enlightened self-interest, not altruism. In the context of the Summit, 
these obligations call for much swifter and deeper cuts, and for a 
reduced reliance on nuclear weapons as instruments of national policy. 
The administration's proposed cuts and its intention to keep withdrawn 
warheads at the ready implies that this reliance is not abating. When 
the state with by far the most powerful conventional forces asserts 
that it can only protect its vital interests with an undiminished 
reliance on nuclear forces it is undermining the global effort to stem 
nuclear proliferation.
    In the light of these facts and observations, we urge President 
Bush to propose an agreement to President Putin that would formally 
commit both states to:

  <bullet> accelerate the current reductions, and to not return 
        warheads removed from the deployed forces under this agreement 
        to active service;

  <bullet> a far more rapid, clearly specified and transparent process 
        for dismantling all undeployed warheads and for rendering their 
        nuclear materials unusable, accompanied by a commitment for 
        increased U.S. and Allied financial support to Russia;

  <bullet> replace their existing prompt-launch nuclear postures by 
        postures within which retaliation to an attack would be 
        delayed, and to adopt transparent measures to that end.

Dr. Hans Bethe

Nobel Laureate; Emeritus Professor of Physics, Cornell University; Head 
of the Manhattan Project's Theoretical Division

Dr. Richard Garwin

Senior Fellow for Science and Technology, Council on Foreign Relations; 
IBM Fellow Emeritus; consultant to the Sandia National Laboratory, 
former consultant to Los Alamos National Laboratory

Dr. Marvin Goldberger

President Emeritus, California Institute of Technology; member, Council 
on Foreign Relations, National Academy of Sciences, American Academy of 
Arts and Sciences

Dr. Kurt Gottfried

Emeritus Professor of Physics, Cornell University; Chairman of the 
Board, Union of Concerned Scientists

Dr. Walter Kohn

Nobel Laureate; Emeritus Professor of Physics and Research Professor, 
University of California, Santa Barbara

Dr. Wolfgang K. H. Panofsky

Director Emeritus, Stanford Linear Accelerator Center, Stanford 
University; Recipient of National Medal of Science and Lawrence and 
Fermi Awards of the Department of Energy

Dr. Steven Weinberg
Nobel Laureate; Jack S. Josey-Welch Foundation Chair in Science, 
Regental Professor, and Director, Theory Research Group, University of 
Texas

    The Chairman. Thank you very much. Senator Lugar had to 
leave because he had to meet with the Secret Service about 
another matter, and so he asked me to apologize, but he said he 
will read the statement. And knowing Senator Lugar, he will 
read the statements. It's often said by Senators, but not often 
done.
    I would say, as we go to you, Dr. Thompson, to Dr. 
Weinberg, I remember when we were having a debate on the issue 
of the strategic stockpile and whether or not we should scrap 
the Comprehensive Nuclear Test Ban Treaty, which I think was a 
gigantic mistake. But, at any rate, that's another issue. And a 
former Secretary of Defense sat before us and said, ``I didn't 
fully understand,'' and I think he was right. And although we 
may very well develop the technology to be able to, through 
simulation, determine the readiness and capability of the 
existing stockpile, that we are going to lose the young 
scientists who would participate in that capability being 
sustained, because, ``They like to see things go boom,'' and he 
was very serious. He wasn't joking. That was one of his--that 
was his trump-card argument as to why we needed to be able to 
resume nuclear testing in order to maintain the interest of 
young scientists--brilliant young scientists who participate in 
the program. And so I thought your comment about one of the 
motivations of--as a scientist is--although you said it 
somewhat facetiously, I suspect there's some truth to that 
assertion.
    Dr. Weinberg. Right, Senator. We should give them the 
opportunity for instance to do elementary particle physics in 
addition to their work in the Nuclear Stewardship Program.
    The Chairman. Well, I think that's true, but apparently 
it's not as glamorous, according to one of the scientists. And 
I am way above my pay grade here.
    Dr. Thompson, welcome. It's a delight to have you here.

STATEMENT OF LOREN B. THOMPSON, PH.D., CHIEF OPERATING OFFICER, 
  LEXINGTON INSTITUTE; ADJUNCT PROFESSOR OF SECURITY STUDIES, 
             GEORGETOWN UNIVERSITY, WASHINGTON, DC

    Dr. Thompson. Thank you, Senator Biden. Thank you for 
inviting me to offer my views on the administration's views on 
the Nuclear Posture Review.
    I'd like to spend a few minutes this afternoon explaining 
why the findings of the review are valid and, if they are 
implemented, will bolster the Nation's security. But before 
doing so, allow me to provide some historical context. This 
month marks the 40th anniversary of a major development in 
American nuclear strategy. On May 5, 1962, Defense Secretary 
Robert McNamara revealed, in a secret meeting with NATO allies 
in Athens, that the Kennedy administration was replacing the 
Eisenhower strategy of massive retaliation.
    The nuclear plan the new administration had inherited 
contained only one option, an all-out attack on every city in 
Russia, China, and Eastern Europe that would have killed 
between 360 and 425 million people. There were no provisions 
for withholding a strategic reserve, no provisions for 
preserving control over forces once a war began, and no 
provisions for trying to induce restraint in Soviet behavior.
    McNamara thought massive retaliation was lunacy, dangerous 
and unbelievable. So in the spring of 1962, he approved a new 
war plan that focused on limiting the damage from a nuclear 
exchange. The new plan contained several options, including 
that of avoiding attacks on Russian cities with the intention 
of encouraging similar restraint on the part of the Soviets. 
Although today we remember Robert McNamara as the father of 
mutual assured destruction, the possibility of restraint 
reflected in his 1962 war plan remained national strategy for 
the remainder of his tenure and beyond.
    When President Nixon directed a revision of nuclear 
strategy in 1969, he added additional warfighting options aimed 
at controlling escalation and limiting damage, a practice 
followed by every subsequent administration.
    Now, why do I mention these matters today? For two reasons. 
First of all, to demonstrate that major revisions in nuclear 
strategy are nothing new. And, second, to argue that the 
findings of the Nuclear Posture Review are fully consistent 
with the values and the goals of past administrations. The 
Nuclear Posture Review is the beginning of a long-term effort 
to modernize the Nation's strategy and its forces so that they 
remain effective in a radically transformed global security 
environment. But its goals are identical to those of past 
strategic revisions: to minimize the likelihood of massive 
attack on the United States and its allies, and to limit the 
damage if such attacks occur.
    How does it do that? It begins by acknowledging the changes 
that have occurred in the security environment since our 
current nuclear posture came into being during the cold war. 
The Soviet Union is gone, and the nuclear forces that its 
democratic successors inherited are shrinking fast. In the 8 
years since the Clinton administration conducted the first post 
Soviet nuclear review, 4,000 warheads and 800 nuclear delivery 
vehicles have been removed from the Russian operational force. 
That's about a 40 percent reduction.
    The motivation of Russian leaders has changed also. Their 
empire, the ideology have ebbed away to be replaced by the 
normal concerns that any nation would have about sovereignty 
and security. U.S. military planners today are more concerned 
about Russian nuclear accidents or theft than they are about 
deliberate aggression.
    But while the defining threat of the cold war has 
disappeared, new dangers have emerged. They are more diverse, 
and we understand them less well. These include half a dozen 
rogue states with programs to develop weapons of mass 
destruction and terrorist movements such as al-Qaeda, which may 
be able to secure the means of mass murder and global commerce. 
Some of the new aggressors are beyond the reach of traditional 
deterrence. Some of them are accident prone. And all of them 
have access to weapons options that did not occur or exist for 
earlier adversaries.
    With the political and technological landscapes changing 
rapidly, the Nuclear Posture Review came to the obvious 
conclusion that many of the assumptions of cold war nuclear 
strategy may no longer be valid.
    Recognizing the unpredictability of challenges, even in the 
near term, the review abandons the traditional threat-driven 
approach to nuclear planning in favor of a more flexible 
capabilities-based approach. Now, what does that mean? What it 
means is that the review identifies military capabilities 
necessary to cope with the widest range of hypothetical 
adversaries. In the words of the Quadrennial Defense Review, 
those capabilities include the capacity to reassure allies, to 
dissuade competitors, to deter potential aggressors, and to 
defeat actual enemies.
    Because the spectrum of actors that must be influenced is 
very large, the required capabilities are correspondingly 
diverse. First, the United States must have offensive nuclear 
forces suitable for surviving surprise attack, and then 
responding in a measured way to many different contingencies. 
Second, it must have non-nuclear offensive forces that can hold 
at risk key enemy assets when a nuclear response would be 
disproportionate to the provocation, or counterproductive. 
Third, they must have active and passive defenses, including 
homeland defenses, to blunt the consequences of an attack on 
America and its allies. Not just to cope with the failure of 
deterrence, but also to bolster deterrence itself. Fourth, it 
must have a resilient command network to maintain control over 
all of its forces under the most trying circumstances. Fifth, 
it must have an intelligence system that can find and target 
the most elusive elements of an enemy's military capabilities. 
And, finally, as if all this were not enough, it must meet 
these requirements while facilitating the further shrinkage of 
the Russian nuclear arsenal, which, even today, represents the 
vast majority of nuclear weapons outside the United States.
    The force posture derived from these requirements has been 
called a ``triad,'' but it bears little resemblance to the 
collection of planes and missiles that made up the cold war 
nuclear triad. Only one of its three legs is offensive weapons. 
The other two legs are defensive measures and a revitalized 
nuclear infrastructure. Moreover, the offensive leg consists 
partly of conventional strike systems, with the remaining 
nuclear weapons representing only a small fraction of the cold 
war force.
    And just as the Bush administration prefers to develop a 
tiered or multi-layered approach to missile defenses, so it 
proposes a tiered offensive approach consisting of three 
layers: operationally deployed weapons, reserve weapons that 
can be returned to operational duty within months or years, and 
inactive weapons awaiting destruction that could be 
refurbished.
    The existence of a large reserve that acts as a hedge 
against unforeseen dangers enables the Nuclear Posture Review 
to embrace major reductions in the nuclear arsenal. As agreed 
to by the Russians earlier this week, the review envisions 
reducing the current operational force of 6,000 warheads by a 
third over the next 5 years, and by two thirds over the next 10 
years.
    Whether these reductions actually occur will depend on 
security trends. But recent progress in the development of 
precision-guided conventional munitions suggest that nuclear 
cuts might proceed even if threats do not diminish. For 
example, the Air Force is considering development of a 
satellite-guide glide bomb that could penetrate 60 feet of 
extremely hardened material, reducing the need for nuclear 
weapons in attacking deeply buried bunkers.
    As of today, the United States actually has no plans to 
develop new nuclear munitions, and it is proceeding with plans 
to eliminate whole classes of delivery systems from nuclear 
service, such as the MX missile and the B-1 bomber.
    The force structure recommended by the Nuclear Posture 
Review will materially enhance global security. First, it will 
preserve a stable structure of nuclear deterrence while 
facilitating huge reductions in the U.S. and Russian arsenals. 
Second, it will reduce reliance on deterrence by acquiring 
offensive and defensive capabilities for coping with accident-
prone or irrational adversaries. Third, it will provide future 
Presidents with the widest possible range of options, both 
nuclear and non-nuclear, for meeting emergent security needs. 
And, finally, it will retain the flexibility to restore nuclear 
capabilities, if necessary, by establishing a strategic reserve 
and revitalizing the nuclear infrastructure. I guess I would 
say parenthetically that, although I hope Professor Weinberg's 
view of the future is valid, that, in fact, there is no 
conceivable reason for needing more nuclear forces than we 
entertained in the NPR. I think that is more an expression of 
faith than physics. There's simply no way of knowing what the 
future holds.
    With regard to this latter issue, it's important to bear in 
mind that the end state the administration envisions for 
offensive nuclear forces would, on a typical day, consist of 
only 8 ballistic-missile submarines at sea and no more than 500 
single-warhead Minuteman missiles on alert. The rest of the 
land-based missile force would be gone. Virtually all of the 
bombers would be dedicated primarily to conventional missions. 
And many of the 14 subs would be in port.
    We may decide in the future that such a force is simply too 
small, so it is necessary to maintain a reserve force, 
especially until we rebuild our more abundant nuclear 
industrial base. Senator Biden, that comment you had at the 
beginning about losing the young scientists, it's come true. 
The average scientist now in this system is my age, half a 
century old.
    The Chairman. You don't look it.
    Dr. Thompson. I feel older.
    For the time being, though, I think that the Bush 
administration has fashioned a prudent and a progressive 
posture that reflects a fair amount of optimism about the 
future of world politics.
    Thank you.
    [The prepared statement of Dr. Thompson follows:]

    Prepared Statement of Loren B. Thompson, Ph.D., Chief Operating 
Officer, Lexington Institute and Adjunct Professor of Security Studies, 
                         Georgetown University

 the nuclear posture review: a necessary evolution in national strategy
    Mr. Chairman and Members of the Committee, thank you for inviting 
me to offer my views on the administration's Nuclear Posture Review.
    I'd like to spend a few minutes this morning explaining why the 
findings of the review are valid, and if implemented will bolster the 
nation's security.
    Before doing so, though, allow me to provide some historical 
context.
    This month marks the 40th anniversary of a major development in 
American nuclear strategy.
    On May 5th, 1962, defense secretary Robert McNamara revealed in a 
secret meeting with NATO allies that the Kennedy Administration was 
replacing the Eisenhower strategy of ``massive retaliation.''
    The nuclear war plan the new administration had inherited contained 
only option--an all-out attack against every major city in Russia, 
China and Eastern Europe that would kill between 360 and 425 million 
people.
    There were no provisions for withholding a strategic reserve, or 
preserving control over forces once war began, or trying to induce 
restraint in Soviet behavior.
    McNamara thought massive retaliation was lunacy--dangerous and 
unbelievable--so in spring of 1962 he approved a new war plan that 
focused on limiting the damage from a nuclear exchange.
    The new plan contained several options, including that of avoiding 
attacks on Russian cities to encourage similar restraint on the other 
side.
    Although today we remember Robert McNamara as the father of 
``mutual assured destruction,'' the possibility of restraint reflected 
in his 1962 war plan remained national strategy for the rest of his 
tenure, and beyond.
    When President Nixon directed a revision of nuclear strategy in 
1969, he added additional warfighting options aimed at controlling 
escalation and limiting destruction, a practice followed by every 
subsequent administration.
    I have two reasons for mentioning these matters today--

  <bullet> first, to demonstrate that major revisions in nuclear 
        strategy are nothing new; and

  <bullet> second, to argue that the findings of the Nuclear Posture 
        Review are fully consistent with the values and goals of past 
        administrations.

    The Nuclear Posture Review is the beginning of a long-term effort 
to modernize the nation's nuclear strategy and forces so that they 
remain effective in a radically transformed global security 
environment.
    But its goals are identical to those of past strategic revisions: 
to minimize the likelihood of massive attack on the United States and 
its allies, and to limit the damage if such attacks occur.
    How does it do that?
Step One: Defining the Threat
    It begins by acknowledging the changes that have occurred in the 
security environment since our current nuclear posture came into being 
during the Cold War.
    The Soviet Union is gone, and the nuclear force inherited by its 
democratic successors is shrinking fast.
    In the eight years since the Clinton Administration conducted the 
first post-Soviet nuclear review, 4000 warheads and 800 delivery 
vehicles have been removed from the Russian operational force--roughly 
a 40% reduction.
    The motivation of Russian leaders has changed too--their empire and 
ideology have ebbed away, to be replaced by the normal concerns that 
any nation has about sovereignty and security.
    U.S. military planners today are more concerned about Russian 
nuclear accidents or theft than they are about deliberate aggression.
    But while the defining threat of the Cold War has disappeared, new 
dangers have emerged that are more diverse and less understood.
    These include half a dozen rogue states with programs to develop 
weapons of mass destruction, and terrorist movements such as Al Qaeda 
that may be able to secure the means of mass murder in global commerce.
    Some of the new aggressors are beyond the reach of traditional 
deterrence; some are accident-prone; and all have options afforded by 
new technology that were not available to earlier enemies.
    With the political and technological landscapes changing rapidly, 
the Nuclear Posture Review concluded that many of the assumptions of 
Cold War nuclear strategy may no longer be valid.
Step Two: Determining Requirements
    Recognizing the unpredictability of challenges even in the near-
term, the review abandons the traditional threat-driven approach to 
nuclear planning in favor of a more flexible, capabilities-based 
approach.
    In other words, it identifies the military capabilities necessary 
to cope with the widest range of hypothetical adversaries.
    In the words of the Quadrennial Defense Review, those capabilities 
include the capacity to reassure allies, dissuade competitors, deter 
potential aggressors and defeat actual enemies.
    Because the spectrum of actors that must be influenced is large, 
the required capabilities are correspondingly diverse.
    First, the U.S. must have offensive nuclear forces suitable for 
surviving surprise attack and then responding in a measured way to many 
different contingencies.
    Second, it must have non-nuclear offensive forces that can hold at 
risk key enemy assets when a nuclear response would be disproportionate 
to the provocation, or counter-productive.
    Third, it must have active and passive defenses to blunt the 
consequences of an attack on America and its allies, both to bolster 
deterrence and cope with its failure.
    Fourth, it must have the resilient command networks necessary to 
maintain control over all of its forces under the most trying 
circumstances.
    Fifth, it must have an intelligence system that can find and target 
the most elusive elements of an enemy's military capabilities.
    And finally, as if all this were not enough, it must meet these 
requirements while facilitating the further shrinkage of the Russian 
nuclear arsenal--which even today represents the vast majority of 
nuclear weapons outside the U.S.
Step Three: Delineating a Posture
    The force posture derived from these requirements has been called a 
``triad,'' but it is very different from the collection of planes and 
missiles that made up the Cold War nuclear triad.
    Only one of its three legs is offensive weapons; the other two legs 
are defensive measures and a revitalized nuclear infrastructure.
    Moreover, the offensive leg consists partly of conventional strike 
systems, with the remaining nuclear weapons representing only a small 
fraction of the Cold War force.
    And just as the administration prefers to develop a tiered or 
multilayered approach to missile defenses, so it proposes a tiered 
offensive force consisting of three layers:

  <bullet> operationally deployed weapons;

  <bullet> reserve weapons that can be quickly returned to operational 
        duty; and

  <bullet> inactive weapons awaiting destruction that could be 
        refurbished.

    The existence of a large reserve that acts as a hedge against 
unforeseen dangers enables the Nuclear Posture Review to embrace major 
reductions in the nuclear arsenal.
    As agreed to by the Russians earlier this week, the review 
envisions reducing the current operational force of 6000 warheads by a 
third over the next five years, and by two-thirds over the next ten 
years.
    Whether these reductions actually occur will depend on global 
security trends, but recent progress in the development of precision-
guided conventional weapons suggest nuclear cuts might proceed even if 
threats do not diminish correspondingly.
    For example, the Air Force is considering development of a 
satellite-guided glide-bomb that could penetrate 60 feet of extremely 
hardened material, reducing the need for nuclear weapons in attacking 
deeply buried bunkers.11As of today, the U.S. has no plans to develop 
new nuclear munitions, and is proceeding with plans to eliminate whole 
classes of nuclear delivery systems such as the MX missile and B-1 
bomber.
Assessing the Advantages
    The force structure recommended by the Nuclear Posture Review will 
materially enhance global security.
    First, it will preserve a stable structure of nuclear deterrence 
while facilitating huge reductions in the U.S. and Russian arsenals.
    Second, it will reduce reliance on deterrence by acquiring 
offensive and defensive capabilities for coping with accident-prone or 
irrational adversaries.
    Third, it will provide future Presidents with the widest possible 
range of options, both nuclear and non-nuclear, for meeting emergent 
security needs.
    And finally, it will retain the flexibility to restore nuclear 
capabilities if necessary by establishing a strategic reserve and 
revitalizing the nuclear infrastructure.
    In the latter regard, it is important to bear in mind that the end-
state the administration envisions for offensive nuclear forces would, 
on a typical day, consist of only eight ballistic-missile submarines at 
sea and 500 single-warhead Minuteman missiles on alert.
    The rest of the land-based missile force would be gone, the bombers 
would be dedicated primarily to conventional missions, and many of the 
subs would be in port.
    We may decide in the future that such a force is too small, so it 
is necessary to maintain a reserve force, especially until we rebuild 
our moribund nuclear industrial base.
    For the time being, though, the Bush Administration has fashioned a 
prudent and progressive posture that reflects a fair amount of optimism 
about the future of world politics.

    The Chairman. Thank you very much. Joe.

STATEMENT OF JOSEPH CIRINCIONE, SENIOR ASSOCIATE AND DIRECTOR, 
NON-PROLIFERATION PROJECT, CARNEGIE ENDOWMENT FOR INTERNATIONAL 
                     PEACE, WASHINGTON, DC

    Mr. Cirincione. Yes, Senator. Time is short. We all want to 
have lunch. I want to thank you very much for allowing me to--
--
    The Chairman. Well, I'm fine. Don't worry about me. I don't 
want to trespass on your time, though. You have all the time 
you want. I'm anxious to hear what you have to say.
    Mr. Cirincione. That's a dangerous thing to say, Senator.
    Thank you very much.
    The Chairman. You've never disappointed me.
    Mr. Cirincione. Thank you very much for the honor of 
testifying here, and thank you, Senator Lugar and Senator Hagel 
and the other members of the committee. I'll just summarize my 
statement and submit the written statement for the record, with 
your permission.
    Let me start off with some things that are not in my 
statement, because they actually weren't in the Nuclear Posture 
Review, and that is any mention of the Cooperative Threat 
Reduction programs that the United States has been implementing 
successfully for the last 10 years with Russia. The posture 
review puts forth the idea of a new triad of strategic nuclear 
forces, advanced conventional munitions, and ballistic missile 
defenses. It says that this new triad will reduce the risk to 
the Nation as it draws its nuclear forces down.
    I don't really think much of this concept. I think it 
represents a consultant's viewgraph more than a valid strategic 
vision. But if the President is going to adopt this, he should 
be strongly urged to add a fourth leg to this three-legged 
stool, and that would be the Nunn-Lugar programs. It's critical 
to see these as integral to our efforts to reduce the nuclear 
risks, not as something external to them. Whenever we talk 
about agreed reductions in strategic forces, we should 
immediately follow that with discussion of secure storage for 
those warheads and verifiable elimination of those warheads. If 
you only do the first step, you are not appreciably increasing 
the national security of this country or reducing the risk from 
nuclear attack. I commend Senator Lugar for the leadership that 
he has taken and continues to take in this field.
    I disagree with my colleague, Loren Thompson, here, and am 
in strong agreement with Admiral Owens and Dr. Weinberg. I 
think the Nuclear Posture Review is a deeply flawed document 
and, if adopted as national policy, could cause irreparable 
harm to the national security of the United States. I take some 
comfort in the fact that this document, as far as I know, 
remains simply the recommendations of the Department of Defense 
with the participation of the Department of Energy, that the 
President has not yet taken any policy actions based on this 
posture review. He has not yet issued, and, I understand, 
probably will not issue, Presidential decision directives based 
on this review.
    I'm speaking now way above my pay grade, and I would 
encourage the committee to investigate this matter forward. 
What actions does the President anticipate taking, based on 
this review? It may not be too late to affect the President's 
decisions.
    When I say this is a flawed document and could do 
irreparable harm, I mean that, although, as you've pointed out, 
Senator, that many of the recommendations in this review 
incrementally adapt policies begun in previous administrations, 
taken as a whole, the proposals represent a radical change in 
our current nuclear weapons policy totally disproportionate to 
the threat. I think that the proposed policies could make the 
use of nuclear weapons by the United States or other nations 
more likely.
    In an issue that might directly concern this committee, I'm 
fearful that adoption of these policies could be construed by 
some as a material breach of the United States' 30-year 
commitment to article VI of the nonproliferation treaty. If the 
United States, as recommended by this review, maintains 10,000 
nuclear warheads for the indefinite future, develops new 
nuclear weapons, and new-use doctrines against non-nuclear 
targets, and ends the negotiated arms-control process, then 
many will say that our Nation has, in fact, abandoned its 
commitment to, ``pursue negotiations in good faith on effective 
measures relating to the cessation of the nuclear arms race at 
an early date and to nuclear disarmament.'' This may encourage 
other nations to reconsider their commitments to the treaty. 
This would greatly complicate U.S. nonproliferation goals and 
President Bush's campaign against weapons of mass destruction.
    For me, the single greatest disappointment in this study is 
its failure to break with cold war doctrines. The review 
advocates maintaining a substantial force of high-alert nuclear 
weapons for the indefinite future. This encourages other 
nations, particularly Russia, to construct larger forces than 
they otherwise would. It, therefore, increases the danger of 
nuclear-weapon accidents, miscalculations, and the threat of 
diversion of weapons into terrorist hands.
    The most pernicious aspect of this review, however, is the 
great leap backward that it takes to the discredited nuclear 
policies of the 1950's. The review puts forward a nuclear 
weapon as simply another weapon, part of a continuum of 
military options merging seamlessly with advanced precision-
guided munitions. The U.S. Army, the U.S. Navy, have long ago 
abandoned and dismantled their nuclear artillery, landmines, 
bazookas, rockets, torpedoes, and depth charges conceived and 
developed in this earlier nuclear age. Most officers know, and 
Admiral Owens has testified to this just earlier, that we now 
have more than adequate conventional weapons alternatives for 
any conceivable mission.
    As Secretary of State Colin Powell wrote in his biography, 
``No matter how small the payload, we would still be crossing a 
threshold if we were to use a nuclear weapon.'' ``Using 
nukes''--he wrote in his book, ``My American Journey''--``at 
this point would mark one of the most significant political and 
military decisions since Hiroshima.'' He was speaking then 
about tactical nuclear weapons used in Europe. I believe that 
observation is still valid today. If the United States were to 
use a tactical nuclear weapon, no matter how small, on an Arab 
or an Asian nation, it would still mark the most significant 
political and military decision that we have made since 
Hiroshima. The consequences would be enormous.
    If the most powerful nation in the world--if the most 
powerful nation that the world has ever known--insists that it 
needs to use nuclear weapons to protect itself from chemical 
attack or to destroy an underground bunker, then why doesn't 
any nation? Why doesn't Iran need nuclear weapons? It, after 
all, has actually been attacked by chemical weapons. This is an 
extremely dangerous message to be sending to the rest of the 
world.
    And the dreadnought analogy that we just heard from Dr. 
Weinberg is well-taken here. Why on earth would we go in this 
direction? When we're at the peak of our power, why on earth 
would we be developing these other weapons, legitimizing their 
use, telling other nations, ``Gentlemen, start your engines. If 
you've been thinking about going in this direction, go right 
ahead, 'cause we're going there''?
    This is the most difficult part of this Nuclear Posture 
Review for me to understand unless you understand the nature of 
this review, its extremely limited base. Who did this review? 
If you ask the Army if they need a new artillery piece, you 
know what the answer is going to be. If you ask the nuclear 
laboratories and the nuclear military command structure if they 
need new nuclear weapons, you know what the answer is going to 
be. That's why this is exactly the wrong way to do a review. 
You don't ask the people who have the most vested interest in 
the systems to recommend what to do with those systems. You 
include them in the review. You want their experience. You want 
their understanding. You want their technical expertise. But 
you want to merge that with the expertise of a broader military 
and scientific spectrum.
    So I would encourage the committee to do two things based 
on your review of this review. The first is to take Vice 
President Cheney at his word that this review is not 
extraordinary, that it's just part of the normal routine of 
doing business, that these kinds of things are done every few 
years. He said that in London shortly after the report was 
leaked to the press. I think he was mistaken about that. We 
actually don't do these reviews very often. But if he was 
articulating the desire of this administration to do it that 
way, let's take him up on it. I think we should conduct a new 
review next year that includes a broader range of foreign-
policy expertise, military expertise, and technical expertise 
to help us guide a more balanced nuclear posture for the 21st 
century.
    In the short term, one of the greatest missing aspects of 
this review is its lack of threat assessment. What are the 
2,000 nuclear weapons for? If you notice, in the earlier part 
of my statement, I said that the United States is going to 
maintain an arsenal of 10,000 nuclear weapons. Some may wonder 
what I'm talking about. I provided a chart at the end of my 
statement based on an analysis done by the Nuclear Resources 
Defense Council of what the U.S. nuclear arsenal will look like 
in 2012, at the end of the reduction process articulated by the 
President and the treaty that he will sign with President Putin 
in just a few days. The strategic nuclear weapons are just the 
tip of the nuclear iceberg. Beneath them are a thousand 
tactical nuclear weapons. Beneath them, thousands of warheads 
in storage. Beneath them, thousands of plutonium pits. And 
beneath that, tons of nuclear material.
    One has to ask what these weapons are for, what exactly is 
the threat they're meant to deter? And this, I think, is one of 
the essential points of this posture review, although Secretary 
Rumsfeld states in his foreword to this review, that we have 
broken with cold war doctrine. In fact, the posture recommended 
by this review continues in place the systems, all of which 
were conceived, designed, and developed during the cold war, 
for one mission and only one mission, to deter and, if 
necessary, fight a global thermonuclear war with the Soviet 
Union. That mission is gone. The weapons remain.
    Our relationship with Russia will truly change not when we 
no longer sign arms control agreements, but when we no longer 
maintain a force that targets thousands of Russian political, 
military, and industrial facilities. It's not the arms control 
treaties that are relics of the cold war. It's the nuclear 
weapons. As long as we have thousands of nuclear weapons, we 
will need to negotiate the fate of those weapons, the purpose 
of those weapons. There is no conceivable military utility for 
2,000 strategic deployed nuclear weapons, except to attack 
Russia.
    I would encourage the committee to ask the administration 
for a clarification. Is this, in fact, still the main 
justification for maintaining 2,000 high-alert deployed 
strategic weapons? If it is not, then what is, beyond 
uncertainty? That is no way to base a weapons system. You don't 
base it on uncertainty.
    In my day, we always started off with a threat assessment. 
Here are the Soviet tanks. Here's how they'll come through the 
Fulda Gap. Here are tanks we need to stop them. Here's how much 
it's going to cost. Here's the foreign policy that will conform 
to that Defense policy. We've abandoned that, in a very 
disturbing trend, to go from threat-based assessments to 
capability-based assessments. That has the effect of justifying 
any system, any program that's politically attractive. It's no 
way to run a Defense Department. I think we have to get back to 
having concrete threat assessments on which we base our force 
structure and base our budgets.
    I'll conclude with that, Mr. Chairman. I thank you for your 
patience.
    [The prepared statement of Mr. Cirincione follows:]

 Prepared Statement of Joseph Cirincione, Director, Non-Proliferation 
          Project, Carnegie Endowment for International Peace

                         a deeply flawed review
    Thank you, Chairman Biden, Senator Helms and Members of the 
Committee for the privilege of testifying before you today. I base my 
remarks today on the publicly available excerpts of the Nuclear Posture 
Review and on official and press comments on the review.
Summary
    The Nuclear Posture Review conducted by the Department of Defense 
and submitted to Congress on 31 December 2001 is a deeply flawed 
document and if adopted as government policy could cause irreparable 
harm to the national security of the United States. Many of the 
recommendations in the review incrementally adapt policies begun in 
previous administrations. However, taken as a whole, the proposals 
represent a radical change in nuclear weapon policy totally 
disproportionate to the threat. The proposed policies could make the 
use of nuclear weapons by the United States or other nations more 
likely.
    Adoption of the policies recommended in the review could be 
construed as a material breach of United States obligations under 
Article VI of the Non-Proliferation Treaty. If the United States 
maintains ten thousand nuclear warheads for the indefinite future, 
develops new nuclear weapons and new use doctrines against non-nuclear 
targets, and ends the negotiated arms control process, then many will 
say that our nation has abandoned its thirty-year commitment in the NPT 
``to pursue negotiations in good faith on effective measures relating 
to cessation of the nuclear arms race at an early date and to nuclear 
disarmament.'' This may encourage other nations to reconsider their 
commitments to the treaty. This would greatly complicate U.S. non-
proliferation goals and President Bush's campaign against weapons of 
mass destruction.
    The greatest disappointment in the study is its failure to break 
with Cold War doctrines. The review advocates maintaining a substantial 
force of high-alert nuclear weapons for the indefinite future. This 
encourages other nations, particularly Russia, to maintain or construct 
larger forces then they otherwise would. It therefore increases the 
danger of nuclear weapon accidents, miscalculations and theft or 
diversion of weapons into terrorist hands.
    In a great leap backward to the discredited nuclear policies of the 
1950s, the review sees nuclear weapons as simply another weapon, part 
of a continuum of military options merging seamlessly with advanced 
precision-guided munitions. The U.S. Army and Navy have long since 
dismantled their nuclear artillery, landmines, bazookas, rockets, 
torpedoes and depth charges conceived and developed in this earlier 
nuclear age. Most officers know that we now have adequate conventional 
weapon alternatives and, as Secretary of State Colin Powell wrote in 
his biography of tactical nuclear weapons use in Europe, ``No matter 
how small these nuclear payloads were, we would be crossing a 
threshold. Using nukes at this point would mark one of the most 
significant political and military decisions since Hiroshima.''
    Unfortunately, the Nuclear Posture Review does not, as Secretary of 
Defense Donald Rumsfeld asserts in his foreword to the review, put 
``the Cold War practices related to planning for strategic force behind 
us.'' There is a severe disconnect between the expressed policy goals 
of the Administration and the proposed operational force structure.
    The secretary claims that ``as a result of this review, the U.S. 
will no longer plan, size or sustain its forces as though Russia 
presented merely a smaller version of the threat posed by the former 
Soviet Union.'' The Secretary may believe this to be true--and it would 
be consistent with the expressed aim of the president--but the force 
structure detailed in the review remains configured for large-scale, 
counter-force attacks against a broad array of targets in Russia.
    There is no strategic justification for maintaining thousands of 
weapons on high alert and a reserve force of thousands more weapons 
ready for re-deployment other than to target Russia. Other target sets 
are added on to, not substituted for, the Russian targets. The real 
mark of a new relationship with Russia will not be when we no longer 
sign arms control agreements, but when we no longer maintain elaborate 
plans to target and destroy Russian military, political and industrial 
sites--and when Russia no longer does the same for U.S. targets.
    The Nuclear Posture Review and the new treaty that President Bush 
will sign shortly with President Putin, will unfortunately not 
``liquidate the legacy of the Cold War,'' as the president has said. 
The review and the treaty do not liquidate any weapons. Ten years from 
now, when the treaty expires, the large deployed nuclear forces we 
inherited from the Cold War will still be very much with us. The 
posture review perpetuates this Cold War posture. As these systems--
conceived, designed and built to deter or wage global thermonuclear war 
with the Soviet Union--reach the end of their operational lives, the 
review calls for the production of a new generation of missiles, 
bombers and submarines.
    Rather than breaking with Cold War rationales for the size and 
purpose of the nuclear force, the review leaves them in place, 
downsizing and rationalizing the force, and adds in new nuclear 
missions. The review basically carries forward nuclear reductions 
already planned for and approved by the Joint Chiefs of Staff under the 
START I and START II treaties and announced as the goals of the START 
III treaty in 1997. In addition, the review expressly advocates the use 
of nuclear weapons against non-nuclear targets in states that do not 
possess nuclear weapons, such as Syria and Libya.
    The review, in summary:

  <bullet> Validates the reductions agreed upon by the United States 
        and Russia in 1997;

  <bullet> Advocates a new generation of strategic nuclear weapons for 
        the next 50 years;

  <bullet> Advocates new designs for new types of nuclear weapons;

  <bullet> Advocates new uses for nuclear weapons;

  <bullet> Brings the country closer to testing new nuclear weapon 
        designs; and

  <bullet> Increases dramatically the funding for and capacity of 
        nuclear weapon production facilities.

    Taken together these represent a dangerous affirmation of the 
military utility and necessity of nuclear weapon in conflicts large and 
small. It sends a dangerous message to other nations contemplating 
development of nuclear weapons. If the most powerful nation in the 
world says it needs nuclear weapons to defend against chemical weapon 
attacks or to attack underground bunkers, why don't other nations?
    The Committee should consider working with the administration to 
conduct a new review next year, but one that involves a broader range 
of military and strategic thinkers. The nation can never be assured 
that we have received the best, most objective review until those 
representing a broad range of American national security and foreign 
policy expertise perform these reviews from the top down, not from the 
bottom-up.
Continuity and Change in the U.S. Nuclear Force
    The United States is the most advanced nuclear-weapon state in the 
world. It maintains a diverse arsenal of strategic and tactical nuclear 
weapons, as well as large stocks of weapons-grade nuclear materials. 
After reaching a high point in the mid-1980s, the U.S. nuclear arsenal 
has been shrinking as part of a negotiated arms reduction process with 
the Soviet Union and, its successor, Russia.
    The Nuclear Posture Review outlines plans to continue the 
reductions in strategic forces, continue efforts to develop missile 
defenses and begin the development of new, low-yield nuclear weapons. 
The initial warhead reductions follow those planned during the Clinton 
administration. By 2007, the Bush administration plans to reduce down 
to approximately 3800 operationally deployed strategic warheads, as did 
the previous administration. This will include reductions of 500 
warheads from the 50 Peacekeeper ICBMs, 800 from the 96 missiles 
carried on four Trident submarines that will be converted to carry 
conventional cruise missiles, and 1,000 from the removal of two 
warheads from each of 500 Minuteman III ICBMs, as called for under the 
terms of the 1993 START II treaty.
    The review preserves and continues the majority of the current 
operationally deployed nuclear force. Aside from the Peacekeeper ICBM 
and the four Trident SSBNs, no additional strategic delivery platforms 
are scheduled to be eliminated from strategic service.
    By 2012, the administration plans to field 1,700 to 2,200 
operationally deployed strategic warheads. This represents a slower 
pace of reduction then envisioned by the previous administration. In 
1997, the United States and Russia agreed on a reduction goal of 2,000 
to 2,500 deployed strategic warheads by the end of 2007. The lower 
number proposed by the Bush administration is derived by no longer 
counting warheads on submarines or bombers in overhaul as 
``operationally deployed.'' Two Trident submarines, with 192 warheads 
each, are usually in overhaul at any given time, as are several bombers 
with dozens of weapons, thus allowing lower numbers without changing 
existing nuclear force plans. (The number of warheads on each Trident 
missile will decrease over the next 10 years.)
    The warheads will be deployed on:

  <bullet> 14 Trident SSBNs,

  <bullet> 500 Minuteman III ICBMs,

  <bullet> 76 B-52H bombers, and

  <bullet> 21 B-2 bombers.

    Some warheads removed from delivery vehicles will be dismantled, 
but the majority will be maintained in the active stockpile for 
potential return to delivery systems on short notice (weeks or months). 
This ``responsive force'' of stored warheads could be redeployed, 
should strategic conditions change. There are almost 8,000 warheads in 
the active stockpile today, stored apart from delivery vehicles but 
maintained in a ready-for-use configuration with tritium and other 
limited life components installed. There is also an inactive stockpile 
of warheads that do not have limited life components installed, and may 
not have the latest warhead modifications. These warheads are kept as 
possible replacements for active warheads and as a ``hedge'' against 
the discovery of a problem with a large number of active warheads.
    The exact size of the future active stockpile or responsive force 
has not yet been decided but it would apparently number in the 
thousands. These are needed, according to the review, to augment the 
operational deployed force to meet potential contingencies. The 
potential contingencies are categorized as ``immediate, potential or 
unexpected.'' The review identifies specific countries that could be 
involved in these nuclear contingencies, including Russia, China, North 
Korea, Iraq, Iran, Syria, and Libya.
The Missing Threat Assessment
    One of the goals of the proposed START III treaty, however, had 
been to require warhead dismantlements to make future reductions 
transparent and irreversible. It appears this is no longer a U.S. goal. 
The review does not explain why thousands of deployed nuclear weapons, 
augmented by thousands of additional nuclear weapons in reserve, would 
be needed to respond to a military engagement with Syria or Libya or 
any of the other nations. The lack of any concrete threat assessment is 
a glaring weakness in the review. The review picks up a disturbing 
trend in other defense department programs--to abandon a ``threat-
based'' planning in favor of ``capabilities-based'' planning. This 
essentially allows for the development of any size force or any weapon 
system that is politically attractive, whether or not the threat 
justifies these capabilities.
Russia is Still the Target
    The sole justification for maintaining a large, dispersed force of 
nuclear weapons on high alert has always been and remains the need to 
target military, industrial and political sites in Russia. The 
Committee should ask the administration to clarify this matter. If 
Russia is not still the target of U.S. nuclear plans, then what is the 
rational for the large size of the force? If Russia still is the 
targeted, then would negotiations for deeper reductions in Russian 
nuclear weapons, such as those offered by President Putin, allow the 
United States to further reduce its forces, saving funds for other, 
more pressing military needs?
    In the most authoritative public statement on the rational for 
maintaining large numbers of deployed forces configured as they were 
during the Cold War, then-commander-in-chief of the Strategic Command, 
Admiral Richard Meis, argued in July 2001 that burden of proof fell on 
those who advocate reductions to demonstrate exactly how and why such 
cuts would serve to enhance U.S. security. ``There is a tyranny in very 
deep numerical reductions that inhibits flexibility and induces 
instability in certain situations,'' he said. ``We must preserve 
sufficient deterrent capability to respond to future challenges, to 
provide a cushion against imperfect intelligence and surprises, and to 
preserve a reconstitution capability as a hedge against unwelcome 
political or strategic developments.''
Maintaining and Modernizing the Current Force
    These views apparently prevailed in the Nuclear Posture Review. The 
Defense Department concluded that there will be a need to maintain 
thousands of deployed nuclear weapons in a triad of bombers, submarines 
and land-based missiles for the indefinite future. The diversity is 
required to ``complicate any adversary's offensive and defense planning 
calculations while simultaneously providing protection against the 
failure of a single leg of the triad,'' according to Mies.
    Admiral Mies does not mention Russia by name, but Russia is the 
only country that has the potential, if not the desire, to launch a 
sudden, large nuclear attack on the United Statess. Thus, U.S. forces 
must remain capable of withstanding a first-strike and responding after 
the attack with an overwhelming and devastating nuclear counter-attack.
    Meis explained:

  <bullet> ``Intercontinental ballistic missile continue to provide a 
        reliable, low cost, prompt response capability with a high 
        readiness rate. They also promote stability by ensuring that a 
        potential adversary takes their geographically dispersed 
        capabilities into account if contemplating a disarming first 
        strike . . .

  <bullet> ``[T]he strategic submarine force is the most survivable leg 
        of the triad, providing the United States with a powerful, 
        assured response capability against any adversary . . . The 
        United States must preserve a sufficiently large strategic 
        nuclear submarine force to enable two-ocean operations with 
        sufficient assets to ensure an at-sea response force capable of 
        deterring any adversary in a crisis . . .

  <bullet> ``Strategic bombers . . . allow force dispersal to improve 
        survivability and aircraft recall during mission execution. The 
        low-observable technology of the B-2 bomber enables it to 
        penetrate heavily defended areas and hold high-value targets at 
        risk deep inside an adversary's territory . . . the B-52 bomber 
        can be employed in a standoff role using long-range cruise 
        missile to attack from outside enemy air defenses.''

    As current forces reach the end of their operation lives, a new 
generation of systems would be built to replace them. The posture 
review calls for the development of a new ICBM to be operational in 
2018, a new strategic submarine and a new submarine-launched ballistic 
missile (SLBM) to be operational in 2029, and a new heavy bomber to be 
deployed in 2040. This recommendation is strongly endorsed by the 
current commander-in-chief of the Strategic Command, Admiral James 
Ellis, in his February 2002 testimony to the Senate Armed Service 
Committee:

          The first finding [of the Nuclear Posture review] I'd like to 
        highlight is the recognition of a pressing need for investment 
        across the full range of our strategic capabilities. As we work 
        to reduce deployed strategic nuclear warheads, this investment 
        is needed to sustain and improve our aging operating forces, to 
        recapitalize our infrastructure, which has atrophied over the 
        last ten years, and to refine and enhance current systems.
Expanded Nuclear Production
    The review details plans to expand the capacity and capability of 
the Pantex Plant in Texas to meet the planned workload of some 600 
warheads (assembled or dismantled) per year, up from the current 
capability of 350 warheads per year.
    The review also notes plans to expand the capacity and capability 
of the Y-12 Plant in Tennessee to meet the planned workload for 
replacing warhead secondaries, and other uranium components. It further 
argues for the new modern production facility to deal with the large-
scale replacement of components and new production of plutonium 
``pits.''
New Weapon Designs
    As a result of the review, the Department of Energy's National 
Nuclear Security Administrations (NNSA) will undertake several 
initiatives in the design and development of new nuclear weapons. The 
NNSA will reestablish advanced warhead concepts teams at each of the 
national laboratories and at the headquarters in Washington to explore 
options including:

  <bullet> possible modifications to existing weapons to provide 
        additional yield flexibility in the stockpile;

  <bullet> improved earth penetrating weapons to target hardened and 
        under ground facilities;

  <bullet> low-yield warheads that reduce collateral damage.
Preparing to Restart Nuclear Testing
    To test some of these designs, the review also recommends 
shortening the time required to restart nuclear testing. Currently it 
would take an estimated 2 to 3 years to resume underground testing of 
nuclear weapons after a decision to do so. The posture review finds 
this unacceptable. Shortening the time needed to test, the review 
argues, will enable the United States to initiate research into whether 
there is a need to develop an entirely new capability--one that is not 
a modification of an existing weapon--in time to counter any surprise 
development. The review says this will also better guard against any 
problems that might develop in existing warheads. The study recommends 
substantial funding increases for the nuclear laboratories to enhance 
test readiness, train new and existing personnel, conduct new field 
experiments and a variety of other projects it terms urgent.
Negative Impact on Non-Proliferation Efforts
    Taken together as a whole, the steps called for in the Nuclear 
Posture Review make the use of nuclear weapons by the United States 
more likely, even in response to non-nuclear threats or attacks. The 
review states that the United States must rely on nuclear weapons to 
deter and respond to threats from weapons of mass destruction, defined 
in the review to include not only nuclear weapons, but chemical and 
biological weapons, and even conventional explosives.
    Within the new nuclear use policy, there are few if any military 
contingencies that might not allow the United States to respond with 
nuclear weapons. This policy raises concerns that, by threatening the 
use of nuclear weapons, even against conventionally armed adversaries, 
we would actually increase the incentive for states to acquire nuclear 
weapons, if for no other reason than to deter the use of such weapons 
by the United States.
    Another more subtle, but equally important development in the 
review is the closer integration of conventional and nuclear force 
planning. The review argues that by more closely linking intelligence, 
communication and force operational planning for nuclear and 
conventional operations, that conventional forces can more easily 
replace operations previously limited to nuclear options, making the 
use of nuclear weapons less likely. It is possible, however, that this 
linking of operational capabilities will also work in the reverse, 
making it easier to target and use nuclear weapons in missions 
previously reserved for conventional missions.
    These changes to operational integration, in combination with more 
direct planning to consider the use of nuclear weapons against states 
including China, North Korea, Iraq, Iran, Syria, Libya and others, 
reverses the trend of de-emphasizing nuclear weapons and could make the 
use of nuclear weapons far more likely and actually encourage, not 
discourage, the acquisition of nuclear weapons by additional states.
    It remains to be seen what affect, if any, the views of the active 
military will have on these policies. Traditionally, the uniformed 
military in the United States has widely resisted anything that would 
counteract the traditional conventional superiority of the United 
States, or that might complicate military planning by forcing troops to 
operate in contaminated battlefields (i.e., chemical or biological 
weapons or radiation). These concerns have been driving factors in the 
development in the United States of advanced conventional capabilities 
as opposed to modern, battlefield nuclear weapons. It is possible that 
the process of integrating the top down directives of the review will 
be difficult and that the position of the uniformed military may lead 
to further modification of these policies.
    When the review became public in March 2002, senior administration 
officials downplayed the significance of the review. Vice President 
Dick Cheney said in London that it was a routine review of the type 
done every few years. The Committee should consider working with the 
administration to conduct a new review next year, but one that involves 
a broader range of military and strategic thinkers.
    Reviews performed by those with a vested interest in the forces and 
requirements under review will inevitably recommend preserving and 
expanding those forces and increasing funding for their programs. The 
nation can never be assured that we have received the best, most 
objective review until those representing a broad range of American 
national security and foreign policy expertise perform these reviews 
from the top down.

                                 ______
                                 

                United States Nuclear Weapons, from 2012

        Category                                      Number of Warheads

Operationally deployed force............................     1,700-2,200
Missile warheads on 2 Trident Submarines in overhaul....            ~240
Strategic missile and bomber warheads in responsive 
    force...............................................          ~1,350
Non-strategic bombs assigned to U.S./NATO conventional/
    nuclear capable aircraft............................            ~800
Non-strategic sea-launched cruise missile warheads 
    retained in the responsive force....................            ~320
Spare strategic and non-strategic warheads..............            ~160
Intact warheads in the inactive reserve force...........          ~4,900

    Sub-Total Intact Warheads...........................     9,470-9,970

Stored plutonium and HEU components that could be 
    reassembled into weapons............................           5,000

    Total of All Warheads and Components................   14,470-14,970

Source: Natural Resources Defense Council ``Faking Nuclear Restraint'' 
13 February 2002, analysis of the Nuclear Posture Review.
---------------------------------------------------------------------------
    The Chairman. Well, I thank you all for your input.
    Let me start with you, Dr. Thompson, if I may. The thing 
that--I was somewhat facetious--I was looking for reassurance 
in your statement, and you state that there are no new nukes 
that are planned or on the horizon. And so let me ask you the 
question this way. Do you think there is any need or 
justification now for planning for new nuclear weapons, whether 
it's an earth-penetrating nuclear weapon or any other?
    Dr. Thompson. It depends on how you mean ``now,'' Senator. 
At this particular moment in time, no. However, the problem is 
that if you look at the recent past, not far beyond the 
beginning of my own life, and you just look at the number of 
events that have occurred: Pearl Harbor, North Korea's invasion 
of the South, the Tet offensive, the Beirut barracks bombing, 
the collapse of communism, September 11--we've got an awful 
track record on predicting the future. And I might mention 
parenthetically that also shows we've got an awful track record 
on deterrence. So, given that, it's easy for me to imagine that 
we will need to conduct serious planning and maybe even design 
work 5 years down the road even though I don't know what the 
stimulus for that activity would be.
    But the reason I know that we don't have any plan at 
present to develop a new nuclear warhead is because we don't 
have the capacity to build one. We've lost the ability to 
design and build new plutonium pits at Rocky Flats. It would 
take 10 years to reconstitute that. We haven't built--we 
haven't manufactured tritium in the United States since 1988, 
without which you can't do a fusion reaction. And, just in 
general, we've got a very decrepit and fragile nuclear 
industrial base.
    So when we say that we're developing a warhead that is 
designed to be a deeply buried bunker penetrator, what we're 
really talking about is taking a fairly old warhead and putting 
it inside a new casing. That's all this is about.
    The Chairman. Do you agree with that, Dr. Weinberg? Did you 
happen to hear the answer?
    Dr. Weinberg. The problem with having a deep earth-
penetrating nuclear weapon wouldn't be solved if we could 
develop a new kind of warhead. The problem is simply that you 
can't get down deep enough into the earth to avoid a tremendous 
amount of fallout, and that has nothing to do with whether we 
have the capability of starting up nuclear-weapon production 
lines. So I think it's an irrelevant point.
    If I can expand on that, Loren Thompson's testimony is a 
very good example of something I've heard again and again: How 
can you tell what we will need in the future? Dr. Thompson 
said, ``How do you know that we will not need to increase our 
deterrent over what we have? It's not a question of physics. 
It's a question of judgment.'' He's right. It's not a question 
of physics. It is a question of judgment.
    Maybe what we need is not to sign this treaty at all, but 
to maintain the 6,000 operationally deployed weapons we have 
now. How do you know that we won't need them in the future? 
Perhaps we are making a terrible mistake.
    The fact is, we never know. As Joe Cirincione said, we have 
to think about actual threats. I cannot conceive any threat--
maybe I'm wrong, but I can't conceive any threat that would 
require the kind of forces that we will have at the end of the 
10-year period that's called for in the treaty.
    On the other hand, I can conceive of lots of threats which 
will be exacerbated by the large size of that force. We've been 
over them--mistaken launch, diversion of weapons to terrorists, 
bad example to other countries, possibly starting nuclear 
programs in other countries.
    And I can just as well say to you, ``How do you know that 
this won't happen?'' Where does the principle come from that 
when you face uncertainty, you always vote on the side of new 
weapons or maintaining existing weapons? I mean, what is the 
theorem there that says that uncertainty is always met by 
maximizing your force? It may not be. It's not a question of 
physics. You're quite right. It's a question of judgment.
    Dr. Thompson. May I respond?
    The Chairman. Please.
    Dr. Thompson. I think it's kind of an exaggeration to say 
that we are erring on the side of always maintaining our 
capabilities. When we started the START negotiations two 
decades ago, we had over 10,000 weapons. Today we have less 
than 6,000. The plan is to go to less than 4,000 in 5 years. 
The plan was to go, quite possibly, below 2,000. Now, it 
might----
    The Chairman. But how can we afford to do that?
    Dr. Thompson [continuing]. Be I'm superficial, but I see a 
pattern here.
    The Chairman. But----
    Dr. Thompson. This is a big reduction.
    The Chairman [continuing]. Is it a good pattern or a bad 
pattern?
    Dr. Thompson. I think the debate here is over the rate at 
which the pattern is unfolding. But, I mean, how can you 
dispute that the number of weapons is declining?
    The Chairman. Well, no, let's assume--obviously, it is. But 
the question is: Is that a good pattern or a bad pattern? Go to 
the theorem that Dr. Weinberg said. I mean, what is--what makes 
you feel secure that we can go from ten to four or two in light 
of your point about Tet, Beirut, et cetera?
    Dr. Thompson. Well, in fact, the Nuclear Posture Review is 
only semi-secure in that judgment. It says that, between now 
and 2012, we will pause periodically, take a look around and 
decide whether we want to go down that additional increment. 
Because here's where we end up at the end of this process. As I 
said, the bombers are all off doing something else on a typical 
day. They're not on strip alert with nukes in them. We've 
reduced our Minuteman force from--well, today we've got about, 
what, 2,000 warheads in the ICBM force. We're down to 500, at 
most, that are on alert. And we're down to perhaps 8 submarines 
at sea on a given day, because there'll be 14 subs. Two are in 
overhaul. A third of the remainder are in port. So that's 8 
subs and less than 500 ICBMs.
    Now, that would have been a wholly inadequate deterrent 20 
years ago. I don't understand why it's so hard to imagine 
needing more than that, when 20 years ago we were pretty 
certain we needed more than that.
    The Chairman. Well, 20 years ago, there was a different 
world, but let me ask you what--we don't know what threats 
we'll face in the future. You have heard Dr. Weinberg and Joe 
articulate what they thought some of the downsides were from 
maintaining this arsenal and from the Nuclear Posture Review, 
as they read it. Now, again, they may very well be wrong, but 
they've outlined the threats they think that flow from this 
Nuclear Posture Review and the tack being taken now relative to 
arms control. What are threats--and can you be as specific--the 
threats that you envision as possibly occurring in 2, 5, 10 
years that would warrant us needing 7,000 nuclear warheads 
again--or 4,000 or 5,000?
    Dr. Thompson. Well, I'm--within the timeframe you 
mentioned, 7,000 probably wouldn't be required; but more than 
2,000 in the operational force, I can readily imagine because 
the preponderance of those warheads would be on a handful of 
submarines. If we determine that an adversary had acquired the 
capability to track those submarines, we might feel that we 
needed to proliferate the number of boats that were carrying 
the deterrent. We might not even need more warheads. We might 
need more ballistic-missile submarines, for example. Those are 
the kind of standard concerns that people talked about for two 
generations during the cold war.
    The Chairman. But tell me some of the other things that 
can--and I'm not being facetious here. I'm just trying to--what 
I hear from those who are concerned about their view of the 
direction we're now going, as opposed to those who think the 
direction we're moving now is prudent, are specific delineated 
concerns that may or may not be correct--i.e., we nuclear test; 
the Chinese, who have great pressure on them now not to nuclear 
test--they may anyway--but will have a green light to go ahead 
and do something that is--all things being equal, would not be 
in our interest for them to be able to test new systems. The 
concern about accidental launches, all the concerns that have 
been enunciated--I'm not asking you to suggest why you think 
they aren't legitimate concerns. I'm asking you to articulate 
some of the concerns that lead you to believe that the need to 
test should be--for us to test--should be readily available to 
us, and, two, the need to maintain significantly more than 
2,000 warheads, deployed or not, is necessary, et cetera, et 
cetera.
    You gave me one, the idea that SLBMs would find themselves 
in a position where technology would be acquired by other 
states to be able to track them. What are some of the other, 
you know, scenarios that have, I assume, the prospect of an 
advent of Chinese breakout with a larger nuclear capability. 
What are some of the other ones?
    Dr. Thompson. Clearly, one possibility--you know, the 
problem with speculating on specifics, Senator, is it's--
remember there was a South African labor lawyer who said once 
that, ``Every revolution is impossible until it happens; and 
after that, it's inevitable.'' Things that look so obvious in 
retrospect, like September 11, would have sounded ludicrous to 
propose before the event.
    The Chairman. But it didn't sound ludicrous. A lot of us 
were saying it. I made a speech on September 10 specifically 
delineating what I thought was going to happen. A lot of people 
thought that. It wasn't ludicrous. There were a lot of people. 
We did not carry the day. We did not--just like there's a lot 
of people, like Senator Lugar, who are speculating that there 
is an overwhelming prospect that terrorists will gain access to 
certain materials to allow them to buy--or to build a dirty 
nuke and/or--I mean, a radiological weapon and/or a 1- or 2-
kiloton nuclear device that they could build.
    So the truth is, there was speculation on every one of the 
things you've suggested. Now, it wasn't the preponderance of 
the view. It wasn't one of those things--but nothing came out 
of the blue. And as we're finding out--and I'm fearful, and I 
hope to God it's not--it doesn't happen, but I'm fearful, as we 
review the intelligence data we had, we're going to find out 
that we knew a helluva lot more than we do.
    Dr. Thompson. I have the same concern.
    The Chairman. And I am worried about that. I mean that 
sincerely. I pray to God that that's not the case, because the 
President will be seriously crippled if that turns out to be 
the case, in his judgment. And it's not his--I mean, I'm just 
very worried about it. I pray to God that we find out that we 
didn't know.
    Dr. Thompson. Senator, I have the same concern. But the 
reason I'm avoiding giving you particulars is because so many 
of these threats that actually are going to happen are--would 
sound quite implausible today.
    You know, when the French held their victory march of the 
Arc de Triomphe in 1919, it was unbelievable that Germany would 
be back in a generation. But it's really quite possible that 
Russia could be back in a generation, because they've been 
there before.
    The Chairman. See, look, I'm not suggesting--the reason why 
I'm looking--I am not nearly--as much as I've tried for 30 
years on this particular subject to come as close as a lawyer 
can come to mastering the intricacies of strategic doctrine--
and I have tried my best. I have had your colleagues, Dr. 
Weinberg, sit with me for hours, literally explaining to me 
what makes it go boom, how you construct a nuclear weapon, 
because I learned a long time ago----
    I'll never forget. I was in a debate with Russell Long on 
the issue relating to price controls relating to energy. And 
the issue was about stripper wells. And I got on the floor with 
Russell Long, and I was debating him on this issue as to why--
and to make a long story short, I was carrying the debate. And 
all of a sudden, he looked at me and said, ``Does my friend 
from Delaware understand how a stripper well works?''
    And I thought, ``Holy God.''
    ``Holy God.'' And he said, ``Well, does my friend 
understand that it's x-feet deep and--x-thousand feet, and that 
you have to run a separate shaft, and you have to put in high 
pressure steam, da-dah, da-dah, da-dah.'' And it had nothing to 
do with my point, but everybody on the floor knew I didn't know 
anything about a stripper well, and he won the debate.
    Well, I've tried very hard to educate myself through my 
staff and the scientists that I've hired and the scientists 
I've availed myself of to understand this. But nonetheless, as 
a policymaker--that's an exaggeration. I'm just a Senator, and 
I'm not being facetious when I say that. We don't make foreign 
policy, but we can impact on what American foreign policy is, 
and we can impact on the margins of what defense policy is.
    And so, as I try to figure these things out, I approach 
this maybe too much as a lawyer, constructing syllogisms that 
hopefully are able to be borne out. And in order to be able to 
do that, I, on the one side of the equation here--I don't want 
to mix my metaphors here--but on the one side, I look at what 
are the articulated downsides to a particular course of action 
and what the threat assessments are relative--and from one 
perspective--and whether or not what we're doing enhances or 
diminishes our security. And I find specific concerns 
articulated by, in this debate--I don't mean just the four of 
us--but in this debate, specific in terms articulated about 
proliferation, about stability, about access to--not third-
world nations, but to third parties--and so on. And then I go 
over on the other side of the equation, and I get from my 
friends on--for lack of a better phrase, the center-righter--
the Rumsfeld school, for lack of a better phrase, and I hear, 
``We just don't know. We just don't know.'' And that's a little 
bit like my saying to my daughter, ``You can't go out.'' And 
she says, ``Why?'' ``You just never know.''
    And she looks at me and goes, ``OK, right, Dad. Now, let me 
explain to you why it's OK to go out to this party.'' ``But, 
honey, you just don't know.''
    I know that sounds like I'm trying to be facetious. I'm 
not. And so it's very helpful--you know, this notion about the 
Russians coming back, I don't doubt that possibility. Germany 
came back. OK, let's say that's true. I don't know anybody in 
the world who is mildly informed--and in foreign policy, I am 
informed--I don't know anybody in the world who thinks there's 
any possibility of that happening in the next decade. I don't 
know of a single solitary human being who suggests that. None.
    I always say this at meetings--I say, ``Tell me. Give me a 
scenario how a country with a $7.5 billion defense budget with 
a $30 billion total budget for the entire nation, and with the 
economic circumstances they find themselves in, the places in 
the world they're situated at this moment, the direction things 
are going, that within the 10-years the bear is back.'' Maybe 
the bear is back in 30 years.
    Dr. Thompson. Senator, that sounds like a pretty desperate 
country. It's easy to imagining a desperate country doing 
irrational or desperate things.
    The Chairman. I can understand them doing irrational 
things, but it plays into the point my friends on the panel are 
saying, which is that desperate countries hang onto what they 
have now, and maybe desperate countries do things that have 
nothing to do with anything other than using systems they now 
have, as opposed to----
    Dr. Thompson. Senator, if I could make a broader point that 
speaks----
    The Chairman. Please.
    Dr. Thompson [continuing]. Nonetheless directly to what 
you're saying, I find that I have a problem on the same issue 
across the board in discussing any military modernization 
initiative we undertake. If I take, for example, the F-22 
fighter, people will tell me, ``Well, the air-to-air threat is 
gone. Where is it going to come from? Why do we need it?'' The 
problem is, we simply can't know.
    Now, your friends, as you put them on the panel, are 
describing our concerns today. And our concerns today certainly 
would dictate that we could have a much lower nuclear force. 
But the concerns at the Washington Naval Conference aren't the 
concerns the Navy had 20 years later, and none of us can 
foresee what those concerns would be.
    So I'm in favor of the administration's policy of going 
down, looking around, going down again, if it seems prudent. We 
may very well go below 2,000 after a decade, depending on the 
world's situation. But this notion that we don't need a reserve 
when we lack the capacity to build new ones or that we should 
simply start cutting immediately today at a much more rapid 
rate, I don't think it's prudent.
    The Chairman. OK. Doctor, you had a comment.
    Dr. Weinberg. I'd like to clarify one thing that is 
obvious, but at this point I think may need to be said, and 
that is that no one is proposing that the United States cut to 
the levels called for, say, by the National Academy of 
Sciences, a thousand weapons of all kinds, deployed or not 
deployed, or by the other organizations, the Union of Concerned 
Scientists, the Federation of American Scientists, and so on, 
that call for similar stringent cuts, just because we want to 
save money, or because we think it's nice to have a smaller 
arsenal. All of this is in the context of a comparable cut by 
the Russians. Yes, the bear may come back. And wouldn't it be 
nice if, when the bear came back, the bear had a few hundred 
nuclear weapons, and we had a few hundred nuclear weapons, 
rather than a few thousand on each side. Wouldn't that be a 
better world if the bear came back?
    Dr. Thompson. Maybe.
    Dr. Weinberg. Oh, maybe? Well, I find it hard to imagine 
any circumstance in which that wouldn't be better. You have to 
think about what other countries will do. And in this case, 
it's obvious. We're talking about mutual cuts. Yes, I agree, we 
couldn't justify a reduction to a thousand nuclear weapons 
during the height of the cold war because of the size of the 
Russian forces. The big thing that's changed is, now we have a 
Russia that has much smaller forces and which is eager to 
reduce them even more. So why not seize this golden opportunity 
to make much more stringent cuts?
    Dr. Thompson. I think Dr. Weinberg has just given an 
excellent example of what the administration is concerned 
about. Let's imagine, for the sake of argument, that we were 
down to a few hundred. All right?
    The Chairman. And the Russians down to a few hundred?
    Dr. Thompson. Exactly. You know, when we've got 6,000, and 
they've got 6,000, if they hide a few hundred, it's no big 
deal. But when you get down to a hundred, and they have a 
hundred, and they've hidden a few hundred, that's a major 
strategic advantage. That, in essence, is what their concern 
is. It's a concern that by the time you realize the other guy 
isn't playing by your rules, if you're low enough, you may have 
lost.
    The Chairman. Well, I think that's a very good point, and 
that's why I'm always surprised by their unwillingness to have 
more stringent verification requirements. But that's a 
different issue, I realize.
    There's so many more things that I want to raise with you 
all. Let me just conclude by asking the following and ask you 
all three to comment if you wish to, or, if none of you want to 
comment, it's OK--express the concern of a non-scientist 30-
year Senator--a Senator who's been here for 30 years. I am less 
concerned personally about--assuming we continue to have some 
prudent and sound responses to what appears to me be at least 
the present leadership of Russia's desire to look West. I mean, 
not since Peter the Great has any Russian leader cast his lot 
with the West as clearly as this guy has. Now, whether or not 
he can sustain it, whether or not he--we do anything to help or 
hurt him in doing that is another question.
    But I am more concerned that our actions, well-intended, 
may very well put China in a position where China concludes 
that its own interests dictate that it fundamentally alter its 
strategic doctrine in a way of consequence. And so could you 
all just speak to me for a second, if you feel that it warrants 
it, a little bit about how China fits into this equation?
    We're talking about Russia, and we have outlined the 
essence of our disagreement about whether the bear comes back 
and how and under what circumstance, if it does come back, we'd 
rather have it. But speak to me about China for a moment.
    And last, about in what is increasingly a circumstance of 
diminished--``diminished'' is the wrong word--limited--more 
limited resources available for what we're all talking about, 
because of--whatever the reason. I don't want to get into a 
domestic debate, but there is less money in the near term. In 
the next 10 years, there is less disposable income the Federal 
Government will have available to us as the consequences of 
actions we've taken and circumstances that have occurred than 
we would presumably would have available to us and were 
projected a year ago. And so I'm not getting into a Democrat/
Republican--just everybody acknowledges we're not talking about 
surpluses of--in the $5 trillion area. We're talking about 
surpluses a lot less, OK? So that is going to put increased 
pressure on domestic budgets, and that's going to put increased 
pressure, as we all know, on military budgets, because right 
now, in the aftermath of 9/11, there is this willingness 
instinctively on the part of the American public to say, ``Yup, 
you know, whatever it takes, we will do.'' But, God willing, 
and there's not another 9/11 for another couple of years, or--
and hopefully forever, but you'll find that the willingness of 
the public to give up prescription drugs and eat into Social 
Security and the rest is going to change dramatically, I 
predict.
    Now, so my generic question is twofold. One, what about 
China? And does what we're about to do, the Nuclear Posture 
Review, as it is, we think, as has been discussed--does that 
diminish or increase the probability that China would do 
something different than they might otherwise do, relative to 
their nuclear arsenal and their strategic doctrine? And then 
maybe they're all going to do everything anyway, so it doesn't 
matter. I just want to talk about that a second.
    And, second, in terms of what we look down the road and see 
the needs--I would argue, by the way, if I were going to make 
the argument you're making, Dr. Thompson, that one of the 
strongest reasons to keep this reserve is, at the end of the 
day it's going to be harder to find the money to do what we may 
have to do if, in fact, there's a breakout in other ways, other 
places.
    But that leads me to the question of--in terms of the 
allocation of dollars over the next decade, does it make sense 
for us to be putting an increasingly larger share in the 
national missile defense system, not--as opposed to in other 
defense needs that we see down the road?
    So could you just--that's like a seminar question to ask 
you both of those, but if you're inclined, would any of you be 
willing to comment on those two areas?
    Mr. Cirincione. Perhaps I could start. I was just in China 
for a conference a few weeks ago, and I was struck by how much 
less concerned the Chinese are about U.S. plans to deploy 
national missile defense, or missile defenses. And how 
increasingly concerned they are about this issue of 
weaponization of space, which has moved to the top of their 
agenda. I think it relates specifically to the Nuclear Posture 
Review.
    Let me just describe these two things very quickly. I 
believe one of the reasons that the President was able to 
withdraw from the ABM Treaty without triggering an 
international wave of criticism, in addition to the fact that 
we're the most powerful nation in the world and nobody wants to 
pick a fight with us--in addition to the fact that he made the 
decision while we're at war, and none of our allies were going 
to criticize us during that critical juncture, in addition to 
the fact that he got Russian agreement to do this--and, as one 
of my French colleagues said, ``We couldn't be more Russian 
than the Russians''--I think it's the realization that the 
Russians and the Chinese and many of our allies now have: while 
we may have a world without the ABM Treaty, we probably are 
also going to have a world without effective missile defenses. 
They've come to the realization, as the President himself has, 
that we don't actually have a ready-to-go missile defense 
system to deploy that would have an appreciable effect on 
regional or global stability. If you look out over the next 8 
years, what we're talking about is a few silos in Alaska, some 
improvements to the Patriot system----
    The Chairman. It can't have any impact on Korea, by the 
way, but that's another interesting point.
    Mr. Cirincione. There isn't going to be a sudden breakout 
of missile defense systems on Aegis cruisers and destroyers. 
The Navy area-wide program has, in fact, been canceled, the 
near-term program, and the theater-wide program is at least a 
decade away. There isn't going to be the rapid deployment of 
THAAD missile batteries. That program is also a decade away. 
There aren't any space-based weapons ready to go. Air-based 
weapons are in a long development process.
    So what we're looking at, and what they're looking at, is a 
slow deployment of some rudimentary capacities that won't 
appreciably affect them militarily. So they're less concerned. 
They don't like the treaty withdrawal. They think it has wide-
ranging implication for how countries think about treaties, but 
they're less concerned about the military impact.
    They are concerned by the impressive show that the United 
States has put on most recently in Afghanistan and the huge 
technological leap that we have in command, control, 
communications, and precision-guided munitions, and they are 
fearful of what that means if we're serious about our stated 
goal to seize the high ground, to dominate space across the 
full spectrum of capabilities. They're fearful of what that 
means for their ability to communicate, to see, to have timely 
intelligence.
    And when you marry that up with the Nuclear Posture Review 
that calls for new designs and new development and justifies 
the use of nuclear weapons in non-nuclear situations, they're 
concerned that the United States might use its advantage, not 
this year or next year, but in the decades to come to force 
China to go along with U.S. decisions that it might otherwise 
resist. And this may cause China to increase its nuclear force 
more than they otherwise would.
    They have a very minimal nuclear force at this point. They 
have only 20 ICBMs that could reach the United States. They 
have only 20 intermediate-range missiles that can reach Russia, 
for example, a very small nuclear force that numbers around 400 
warheads total. There has been a debate inside China about 
where resources should go, just as there is in this country. 
That debate has been decided against a significant 
modernization of the force, although some is underway. It's 
been underway for decades now. This may encourage them to 
increase the size of the force that they would otherwise 
deploy. And it was particularly true in the area of tactical 
nuclear weapons. If the United States is considering mating a 
precision-guided munition with a small tactical warhead, well, 
perhaps China should go down that route, as well.
    The United States is now concerned about very low-yield 
tactical weapons, ones that would minimize collateral damage. 
But if you don't have that concern, and if the United States is 
saying it's OK to do this, then perhaps China would consider 
using a small, but still very large, nuclear weapon on some of 
its missile batteries that are now assembled across the Strait 
of Taiwan. It would make elimination of Taiwanese air fields 
and communication facilities much easier for them to 
accomplish. We don't believe any of those missiles are nuclear 
armed at this point. So that is some of the dilemmas you get 
into as you make the world safe for nuclear-weapons use.
    Let me say one other thing, and then I'll stop. You asked a 
question earlier on, ``Are we undertaking new designs?'' The 
answer is yes, we are. And if you read the Nuclear Posture 
Review, it says that, as a direct result of this review, the 
Department of Energy's National Nuclear Security Administration 
has undertaken several initiatives, including reestablishing 
advanced warhead concept teams at each of the national 
laboratories and here at the headquarters in Washington to 
explore new nuclear-weapons designs that include modifications 
to existing systems, improved new earth-penetrating weapons, 
and improved low-yield warheads that would reduce collateral 
damage. Therefore, they want to shorten the test time necessary 
so that if these new designs, in fact, prove out, they will be 
able to test them more quickly than they otherwise would.
    Let me stop there.
    Dr. Thompson. With regard to China, you know, China has 
shown remarkable restraint in their nuclear forces for over a 
generation now. I would have to conclude from that that they 
are much less of a threat to us in the near term than some 
people seem to think.
    In the past, and probably in the future, China's assessment 
of what it requires militarily has been based on the regional 
threats that it faces from the Russians, from the Indians, even 
from the Vietnamese. I would have to conclude from that that 
the main reason why the Chinese would want, in the near term, 
to greatly increase their forces, vis-a-vis, us, is the 
position we take on Taiwan. The fact that we have 6,000 or 
2,000 nuclear warheads, in the past, has not made a big 
difference to the Chinese, so probably won't in the future. On 
the other hand, the Taiwan issue could become a major impetus 
to how they regard their military preparations toward us.
    Now, on the subject of reduced resources, I sure like that 
idea you brought up with the previous panel of going and 
getting them first instead of waiting for them to launch and 
then trying to stop the missiles. That just has intrinsic 
common sense behind it. However, in the past, we haven't always 
been willing to go do that. In fact, we usually aren't. We 
usually need a real crisis to get us moving, and that usually 
means they have launched first. We're only spending 3 percent 
of our Defense budget on all our missile-defense efforts.
    The Chairman. Yes, I agree.
    Dr. Thompson. Now, I think Joe's right. I think the reason 
people don't care about us pulling out is because they don't 
believe we're going to do anything significant. Certainly five 
interceptors in Alaska isn't something that's going to change 
global politics. However, we are doing some things, genuinely 
transformational things that, down the road, could be quite 
significant.
    And although I basically agree with your priorities and 
your assessment, I would say this. If your concern is about 
constrained resources in the future, 3 percent of the Defense 
budget on missile defense isn't much compared with what we're 
going to have to spend on those other items you thought we 
should be emphasizing.
    The Chairman. Well, I agree. I agree. That is my point. 
And, look, I have voted since I've been a United States 
Senator, tens of billions of dollars on research on national 
missile defense, so I have not been--but that's another story. 
But what I'm talking about is the continued, sort of, dogma now 
that we are going to. It's a dogma of--it's kind of the new 
catechism, that we are going to build this----
    Dr. Thompson. I think we're trying to reassure ourselves.
    The Chairman. I think maybe. I hope that's the case.
    I'll conclude with you, doctor. And, again, I appreciate 
the patience of all of you. I cost you lunch.
    Dr. Weinberg. Well, I'm not a China expert. I have a wok, 
but that's all.
    But I do know that the Chinese have collective leadership 
and that inevitably, whatever they decide to do about 
modernizing their missile forces or increasing their size, 
there will be one side that is in favor of it, and there will 
be another side that will be against it, because that's the way 
the world works. And whatever we do--for example, if we build 
an anti-missile system, it will be an argument in the hands of 
the people who want to increase their forces.
    There was a national intelligence estimate a few years ago 
that if we deployed a missile defense system, the Chinese would 
increase their forces by a factor of ten. I think that's not 
inconsistent with what's been said about missile defense, 
because they wouldn't necessarily increase their forces if they 
didn't think we were actually going to deploy a meaningful 
missile defense system.
    But I think we always have to think of the effect we have 
on them. That might not be the case in a country ruled by a 
single dictator, like Iraq, but I do think it's the case in 
countries like Iran, China, many others, which, while very far 
from being democracies, are, nevertheless, ruled by a clique 
rather than by a single individual.
    As for the spending issue, of course spending on extremely 
expensive projects like missile defense will produce swingeing 
cuts in other programs. One of the programs that I'm most 
concerned about is the Nunn-Lugar programs. The Baker-Cutler 
report called for spending on that at a much higher rate than 
we are now doing, and I think that's really a pity.
    And, finally, I would say, with regard to stripper wells, 
I'm from Texas, and I've had exactly the same thing happen to 
me.
    Mr. Cirincione. May I just add one----
    The Chairman. Sure, Joe.
    Mr. Cirincione [continuing]. Little Chinese addition. The 
Nuclear Posture Review places a great emphasis on improving our 
capability to locate, target, and destroy mobile and 
relocatable targets. They go into some detail in the review. 
OK, who's got mobile and relocatable targets? We're talking 
about using nuclear weapons against them. This is the Nuclear 
Posture Review. Presumably that means we're worried about 
nuclear mobile and relocatable targets. Well, that's the 
direction that the Chinese are moving in. That's what they're 
modernization is premised on. They want to take their fixed 
intercontinental ballistic missiles, now 20 years old, and 
develop a new mobile ballistic missile in approximately the 
same numbers, but to make it more secure, more survivable, 
because they have a deterrent force. If the United States is 
improving its capability to take those out first, that causes 
the Chinese great concern, that they may not have a survivable 
deterrent. That raises very profound issues for them.
    The Chairman. Gentlemen, I appreciate your being here, I 
appreciate the time, and I appreciate your willingness to 
engage one another. It's the place from which guys like me can 
learn the most, the circumstance, and I appreciate everything 
you've done, as well, for the country.
    I am going to--with your permission, would like to submit 
several questions to each of you and warn you that you're all 
good enough that, unfortunately, we're going to ask you to 
trespass on your time again as this debate goes on. I thank you 
very, very much.
    We are adjourned.
    [Whereupon, at 1:50 p.m., the hearing was adjourned, to 
reconvene subject to the call of the Chair.]

                                   - 

</pre></body></html>
